,"- "-""'''''   '' -:";,,:,
   :..!..,




                        IMPLEMENTATION OF THE STATE

                       LEGALIZATION IMPACT ASSISTANCE

                               UNDER THE IMMIGRATION
                          GRANTS



                       REFORM AND CONTROL ACT OF 1986
                                         STA TE OF CALIFORNIA




                       OFFICE OF INSPECTOR GENERAL
                      OFFICE OF ANALYSIS AND INSPECTIONS
                                                                DECEMBER 1989
:_-   . .,_.   ""--",..            ..__._----    -. '--   - -------'-------._   _.. -   ---- ------- -.--.- ----   - -                               ..




                                                   OFFICE OF INSPECTOR GENERAL


                     The mission of the Offce of Inspetor Gener (OIG) is to promote the effciency, effective­
                     ness, and integrty of      progr
                                                    in the United States Deparent of Health and Human Ser­
                     vices (HS). It does ths by developing method to detet and prevent fraud, waste, and
                     abuse. Crate by statute in 1976, the Inspeto Genera keeps both the Seceta and the Con­
                     grss fuy and curently inormed about                           progr
                                                                        or maagement problems and recommends
                     corctive action. The OIG perform its              y conducting audits, investigations, and in­
                                                                                   mission


                     sptions with   approxiately  1, 300 sta  strategicaly located arund the countr.




                                           OFFICE OF ANALYSIS 
                                    AND INSPECTIONS



                     Ths report is prouced by the Offce of Analysis and Inspections (OAI), one of the thee
                     major offces with the OIG. The other two ar the Ofce of Audit and the Offce of Inves­
                     tigations. Inspections ar conducted in accordace with professional          developed by               stada
                     OAI. These inspections ar tyicaly short-term studies designed to determe program effec­
                     tiveness, effciency, and vuerabilty to frud or abuse.

                     Th study was conducted to determe the effectiveness of Caorna s implementation of
                      State Legalzation Impact Assistace Grts                                fuds awar              under the Imgrtion Reform
                      and Control Act of 1986.



                     The report was prepar under the dition                               of Don McLaughlin, the Regional Inspector
                     Genera of Region vn, Offce of                   Analysis and Inspetions.                       Parcipatig in ths project were
                     the followig people:

                      Kansas City                                                            San Francisco
                     Hugh Owens,      Project Leader                                         Apryl Wilams
                      Raymond Balandrn
                      James Wolf
                      Alicia Smith

                      Headquarters                                                           New York
                      Albert J. Nace                                                         Lucile M. Cop
                      Debra Robinson
  IMPLEMENTATION OF THE STATE

 LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986

                 STATE      OF   CALIFORNIA




                         Richard P. Kusrow
                         INSPECTOR GENERAL




OAI-   07-8002                                DECEMBER 1989
.---_":-   ;..;.:,-    :.:.,. ... .:, ,..   ..:'.
                                                    ,. J.   ': :..;:";..h'   ':'':'!t'-
                                                                                          :'. :.(':':, ..     - :":~~~~ .&,
                                                                                                            '-.-.             "'_   ;:,,   :..
                                                                                                                                             :J.
                                                                                                                                                   .-,..::
                                                                                                                                                             ..i,':,,_
                                                                                                                                                                         ':.-.-""_ .; ,.   ....   ,--   ,,,.'"..._ :..
                                                                                                                                                                                                                     :.::....   ..--. .:..   ..t,....
                                                                                                                                                                                                                                                        :'...




                                                                                                                  EXECUTIVE SUMMARY


                      PURPOSE
                      The purose of ths inspection was to determe how effectively Calfornia implemented the
                      State Legalzation Impact Assistace Grants (SLIAG) program, to identify potential problems
                      early in the process, and to identiy goo practices which all States could share.

                      BACKGROUND

                      The SLIAG progr was established under the Immgration Refonn and Contrl Act (IRCA)
                      of 1986 to reduce the fmancial burden of providig public assistance, public health assistace,
                      and educational services to eligible legalzed aliens. In Fiscal Year (F) 1988, $928. 5 milion
                      in progr funds were allocated to States, and funds wil contiue to be alocated through
                      FY 1991. These funds also cover admnistrative costs for implementing SLIAG at the State
                      and local levels. Payments ar made for public assistance activities generaly available to all
                      needy individuals and public health assistace services offered under the States ' public health
                      progrs. The payments also cover educational services designed to assist eligible legalized
                      alens to attain a satisfactory level of performce in school and to achieve English language
                      proficiency and citizenship skils necessar to become permanent residents. The Famly
                      Support Admnistrtion (FSA) is responsible for admisterig the program.

                      Because SLIAG was a new progr, FSA realzed that problems would surace early in its
                      implementation. In addition to the norm dificulties encountered in creatig new processes
                      and proedures, FSA recognzed that SLIAG would have unique problems. Some of these
                      issues include the diversity of programs which SLIAG encompasses, cultur and language
                      barers associated with the servce population, maintaning confidentialty of information , and
                      the extremely short tie fraes for the grt award process.

                      METHODOLOGY

                      In response to the anticipated dificulties with implementing SLIAG, FSA requested that the
                      Offce of Inspector General (OIG) conduct reviews in 10 States to determne the progress of
                      States ' implementing this progr. The FSA selected nine States and the Distrct of Columbia
                      because of the varety of program they offered, the number of eligible legalized aliens in the
                      population , or the amount of the grant award. The nine States ar Arzona, California,
                      Colorado, Florida, llinois, Massachusetts, New York, Texas, and Washington.

                      Interviews based on strcturd discussion guides for each major program ara, as well as
                      documentation fuished by FSA and State and local offcials, built the base of information for
                      ths report. This report represents the review conducted in the State of California and reports
                      on its implementation of the SLIAG program as of August 1988.
._-   -"'   .: _.. "". '--
                             I--,
                                    -;-     c.'4J--
                                                      :;,,,,         .., -,. --''   .J_"
                                                                                           "'''-   :-.. :.   ...":""''''''   ''-----'''''-    -'...."..       ......_.
                                                                                                                                                          ..:c_
                                                                                                                                                                         _--....,,.~­ - -   -----   .-..




            Both FSA and Calorna were commtted to identiyig problems and developing inovative
            and effective solutions for them. Imedately followig our on-site visits, FSA was given an
            outle of the State concerns identied in ths report

            FINDING: Since 
1987 FSA ha held IUnai conferences and issued informaton to
            Stats on implementing the SUAG program

                                          The FSA held several national conferences                  begig
                                                                                               in 1987 to share
                                          inormation with States on SLIAG legislation, the implications for States, the
                                          application process, and the documentation of costs.

                                          The FSA also provide States with "Question and Answer" issuances and
                                          demographic data from the Imgration and Natuzation Servce (IS).

            FINDING: Calfornia established a strture to identfy organizanal                                                                  and program needs.

                                          The Deparnt          of Social Servces, the grte agency, assigned public
                                          assistace coordation to its Refugee and Imgrtion Progrs Brach. Both
                                          the Deparent of Health Servces and the State Deparent of Education
                                          established IRCA units to handle SLIG-relate functions.

                                          The State has used advocacy grups, along with State and local governmenta
                                          work grups, to help implement the SLIAG progr in Calorna. These
                                          argements have helped cross-pollate ideas thugh report of plang and
                                          progress. Also, these argements have aide diferent method for estiatig
                                          progr costs.
                                          The Health and Welfar Agency, designate by the Governor as the single point
                                          of contat and lead agency to implement the SLIAG program, served as par of
                                          the State s IRCA Workig Advisory Grup. The Group was established to
                                          resolve policy and regulatory issues and ensur that the varous State
                                          deparents comply with IRCNSLIAG policies.


            FINDING: Calfornia also took steps to document expenditures and control disbursements.

                                          The State Deparent of Education conducted workshops for school officials to
                                          acquait them with the varous INS car. The purse of the workshops was to
                                          show the officials how these cards can be used to identiy eligible legalzed
                                          alens for the SLIAG- funded education programs.
, :.   ..,..   .;.."'-:
                          --'7_ J."""
                                        - -' .   ""-   ',"- ':'''"      ;':''   ':''   '''- ''- '''   ,..   -:..   .._ ... -, .,   ....
                                                                                                                                              -'-J''_''''­
                                                                                                                                          "".I_
                                                                                                                                                             -''   .''   _. .-" ,'-,   -' .,--




                                                                     The State told the counties that in order to be reimbured for servces rendered
                                                                     retractive to October 1987 there must be supportng documentation for these
                                                                     servces.

                                                                     The county agencies visited durg the inspection were, in many cases, captung
                                                                     infonnation on eligible legalized aliens retroactive to 1987.


                                 Neverteless, there are some funds control vulnerabilties.


                                 FINDING: Public health assistance programs need definitive guidelines from the State on
                                 how to identify eligible legalized aliens.

                                 FINDING: The FSA' s policy of denying payment for services rendered by community-
                                 based organizations and qualifed designated entities prior to the State s application
                                 approval date caused difficulties for                                                 the State.


                                 FINDING: Conflicting interpretations of the term "public charge " has caused
                                 uncertainties for aliens as to what services they are entitled to receive without fear of
                                 deportation.

                                 FINDING: State guidelines are needed to determine allowable costs in public health
                                 assistance and education programs.


                                 As mentioned earlier, FSA and Calornia have aleady initiated action on some of the
                                 recommendations made in this report. Steps have been taen by FSA to provide States with
                                 more specific, fonnal guidelies for identifying and documentig actual program and
                                 admnistrative costs. However, additional actions ar necessar in other areas on the par of
                                 FSA and California.


                                 RECOMMENDATION: The Stat                           directives to the counties to ensure greater
                                                                                                                    should issue
                                  consistency in documenting the status of eligible legalized aliens for public health services.

                                 RECOMMENDATION: The FSA should analyze the effect of its policy to deny retroactive
                                 payment to community- based organizations and qualifed designated entities for services
                                  rendered in good faith,                               and consider whether a modifICation to its position would be
                                  warranted.

                                 RECOMMENDATION: The FSA and the INS should further clarify what is meant by
                                  public charge " and widely disseminate this information to the aliens who have raised
                                 concerns about their resident status.
. .-   :'. ",--   ,-- "'-- ..--..-"":- :": ,"-'-"   "',,- -=::)"
                                                                   -i:::"
                                                                            ;--.::.   ,,,, :::
                                                                                                 o:,
                                                                                                       ,-,   :",,,   "";; ;:'
                                                                                                                                'k.
                                                                                                                                      :'-:... . ; ':-''   ~~~~ -,:,.   :"..,,.   ..'-:,-   ':..   _.,-   ;--:.   ----




            RECOMMENDATION: The State should develop a methodology to identify allowable
            public health assistance program costs.

            RECOMMENDATION: The Stat should develop guidelines for all providers of
            educatinal servces identifying allowable costs for SLIAG purposes.



            COMMENTS

            The FSA and the State of Calfornia both commente on the drt report. They generally
            agreed with our fmdigs and recommendations. Both indicate that steps have been taen to
            improve implementation of SLIAG. Their comments are included verbatim as Appendices B
            andC.
",...-,   .:..: .:.:":'. ' --.           ,-,-",-,.. , .,,- , =--                         .........
                                                                                       .......
                                                                      ",," '",'....' -,- ,-.       .......
                                                                                                 ............
                                                                                                .....
                                                                                              .........        .....-...
                                                                                                    ..:-........
                                                                                                         .......
                                                                                                              .._
                                                                                                         c..'i'
                                                                                                                         '. .............
                                                                                                                            ......
                                                                                                                            ........
                                                                                                                      _-.....       .......
                                                                                                                                       .....
                                                                                                                                ........
                                                                                                                                     ....      -.......
                                                                                                                                       "-_""' ....
                                                                                                                             ..................
                                                                                                                                 o.---            .....
                                                                                                                                                 .......     .....
                                                                                                                                                            ....
                                                                                                                                                               .....
                                                                                                                                                      ...''''-''.
                                                                                                                                                     ......
                                                                                                                                                    ";""'     ....
                                                                                                                                                            ...     ....
                                                                                                                                                                    ....
                                                                                                                                                                  ....
                                                                                                                                                                   .... ........
                                                                                                                                                                      ........
                                                                                                                                                                           ........
                                                                                                                                                                       ......      .....
                                                                                                                                                                           ...........
                                                                                                                                                                              /':.-"",,
                                                                                                                                                                     ...............
                                                                                                                                                                         ........
                                                                                                                                                                           .........
                                                                                                                                                                          d;/
                                                                                                                                                                                        ...
                                                                                                                                                                                      ....     .....
                                                                                                                                                                                             ......
                                                                                                                                                                                              .....
                                                                                                                                                                                         --.....
                                                                                                                                                                                             -." . ....
                                                                                                                                                                                               ..........
                                                                                                                                                                                                   ....
                                                                                                                                                                                                     ..............
                                                                                                                                                                                                          .....
                                                                                                                                                                                                        ....
                                                                                                                                                                                                           ....
                                                                                                                                                                                                            ....  ...
                                                                                                                                                                                                                  ....
                                                                                                                                                                                                               ....
                                                                                                                                                                                                                 ...
                                                                                                                                                                                                                  ....
                                                                                                                                                                                                 (- - ""''P.. c-...
                                                                                                                                                                                                                       :.........
                                                                                                                                                                                                                       ....
                                                                                                                                                                                                                    ....  ...    ' ;'.;''-- ....
                                                                                                                                                                                                                          ' -,..-....         . .... ...........
                                                                                                                                                                                                                                                     ,. "". '-,.' ..' ...
                                                                                                                                                                                                                                                                      ..




                                                                                                   TABLE OF CONTENTS


                          EXECUTIVE SUMMARY


                            NTRO DUCTIO N . .... .......                                                                                                                                                                   ............ .... ....... 1


                                       PU R POSE. ...... ................ ................ ...... ....                                                                                                                           ........ .... ..... ... 1


                                       BACKG ROU N D....                                                                                                                                                                   ............... ..... ... 1


                                           ETHODOLOG Y ............... .......... ................ .......... ......... II 


                         CALIFORNIA' S ORGANIZATIONAL STRUCTU RE...........................................                                                                                                                                                                 3

                          FINDINGS AND RECOMMENDATIONS .................................................................. 5


                                       PU B LIC                    ASSISTANCE ..... ........... ......... ....                                                                                                                           ................ 6

                                       PUBLIC HEALTH ASSISTANCE................................................................ 8


                                       EDUCA TIO N . ..11....                                                                                                                                                ..11.... ......................                          1 





                                       CROSSCUTTING ISSUES ......................11................................................ 12


                          OIG RESPONSE TO COMMENTS ......................................................................... 15


                          APP EN DIX A.... ..... .... .......... .......... ..........                                                                                                                    ............ ............... A . 1


                          APP EN DIX B................. ...                                                                                                                                                                              ....... .... B . 1


                          APP EN DIX C. .... ....... ..... .... .... ...                                                                                                                                                                 ........... C - 1

. ..:.   .._".-.    .:_   ...   --=-..,_...   -,...   --..   -";- -I_ "-_....;.."_.""   .:._ .:o_. ...--             ,,,,:.--""
                                                                                                           ..=' ""),,,,           --..........:.-.""..   ....'-   ,.---­




                                                                   INTRODUCTION


                   PURPOSE
                   The Famy Support Admstrtion (FSA) reuested that the Ofce of Insptor General
                   (010) conduct an inspetion in nie States and the Distrct of Columbia to determe how

                   effectively the States implemente the State Legalzation Impact Assistace Grts (SLIAG)

                   progr awarde under the Imgrtion Reform and Control Act (lCA) of 1986. The

                   insption included reviewig mehansms in place to identi these funds and determg

                   whether present or projecte policies and                     prours
                                                                         adere to FSA gudelies. The FSA also

                   was intereste in  identig    potential problems early in the process and goo pratices which

                   al States could shar. Ths report presents the results of the inspetion           to the State
                 pertg
                   of Caorna.



                   BACKGROUND

                   Under IRCA , eligible legalze alens may apply for perment residency within a I- year

                   peod afer they ar fit eligible (Le., by the 31st month afr they receive temporar resident

                   status).


                   Ths new   population wil incrase the demad for State public assistace and public health

                   assistace servces signcantly. It wi also incras the demad for State educational servces

                   as these new residents obta Englsh laguage and civic skis           to beome U. S. citizens.
 nee
                   , To help States defray may of the costs of providig public assistace, public health
                     assistace, and educational servces to eligible legalze alens, IRCA authorize $1 bilon
                   each year from Fiscal Year (F) 1988                    thugh 1991 for SLIG grts, less an amount
                   identied as the "Fedra offset. " With      exceptions, eligible legalze alens are ineligible
                                                                           few
                   for federaly funded public assistace               progr
                                                                 such as Aid to Fames with Dependent
                   Chidrn (AFC), foo staps, and Medcaid. The "Fedra offset" is the estiated cost
                   the Federal Governent of providig these servces or benefits to those few legaliz aliens
                   who ar eligible for them. In FY 1988, the law alocated $928. mion to States.

                   To reeive SLIAG fuds, States must apply to the FSA Division of State Legaltion

                   Assistace, which is responsible for approvig applications and adisterig the program.

                   The application must be approved in tota for a State to reeive any SLIAG funds. The FSA

                   also provides States with tehnical assistace on policy issues and on the method used to

                   determne costs and verify actual costs.

"'.:      ~~~~     ~~~ ,::"..;,-   ..-"._
                                            - i. -
                                                     :":_   :',:;     '':'_
                                                                              L::,
                                                                                     ..;   ~~~~   1;:i.
                                                                                                          --;
                                                                                                                '-"',;1:
                                                                                                                           ~~~~   :"..   ~~~~..'   :"-::-,:::   ":-   '';




   The basic reuiment for States to clai reimburement is that costs must be alowable,
   reasonable, and alocable. State public assistace and public health assistace program must
   be the same ones avaiable to the genera public. States canot create new           in these                                     progr
   aras speifcaly for eligible legalze alens. However, States may create new or adtional
   education     progrfor the eligible legalze alen popultion. States may also clai
   reimbursement for progr adstrtive and SLIAG adstrtive costs.

   Reimburement for public assistace and public health assistace is                                                        lite to the amount of
   State and local funds expnde for SLIAG-relate costs. The maum SLIAG
   reimbursement for educational servces is an average of $500 per year per eligible legalze
   alen. Determnation of progr                                      adtrtive
                                                  costs is mad in accordce with the fial
   regulation at 45 CF 402. 22.

   The FSA is responsible for                    adsterig
                                          the program Because SLIG was a new program,
     real
   FSA          that problems would surace early in its implementation. In addtion to the
   nor        diculties encountered in cratig new processes and proedurs, FSA                                                             reogn
   that SLIAG would have unque problems. Some of these issues include the diversity of
   progr     which SLIAG encompasses, cultu and language baners associated with the
   servce population, maitang confdentialty of inormation, and the extrmely short
   fres   for the grant award process.


       METHODOLOGY

   The FSA selected nie States and the Ditrct of Columbia for the inspection beause of the
   varety of     progroffered the number of eligible legalze alens in the population, or the
   amount of the grt. The nine States ar Arna, Caorna, Colorado, Florida ilinois,
   Massachusetts, New York, Texas, and Washigton. Ths report reviews implementation of the
   SLIG progr in the State of Calorna as of August 1988.

   Pror to conductig the inspetion, the OIG    develope               discussion gudes for each    strctu
   major program activity at the State and local levels. In the State of Calorna, we held
   intervews in Sacento with appropriate sta. Ths include the single point of contat and
   representatives frm public assistace, public health assistace, and education. In adtion
   we interviewed appropriate sta in                                 th
                                            counties: Los Angeles, Orge, and Santa Clar
   Accordig to 1987 data from the Calornia Deparnt of Finance, the four most populous
   counties with eligible legalze alens were Los Angeles (64%), Orange (8%), San Diego
       (5%), and Santa Clara (2.5%). For                             purses of reviewig                   dierent geographical aras in the
   State, two counties in the south were selecte (Ls Angeles and Orange) and one county in the
   nort (Santa Clara). Prviders of health and education servces also were intervewed The
   purse of the local contats was to obta informtion frm local governg boes as to their
   planed implementation of the SLIAG                                         progr
                                                       In Caiforna, SLIAG-funded program
   be county-    adstere    as is the case with their other                                   progr.
...   f....
              ....
                     ;'U_­
                             --_
                                   --.b   -;i..       ",:-'.\4"'''
                                                                     _._
                                                                           ;.v-'          "",,   ~~~,,,,,,_..''.._.   ...




                                                  CALIFORNIA' S ORGANIZATIONAL STRUCTURE


                      The governor has designate the Health and Welfar Agency as the single point of contat and
                      lead agency to implement the SLIAG                                 progr
                                                                  The agency is responsible for a number of
                      taks includig preparg the anual application for SLIAG fuds; reommendig SLIAG
                      fudig alocations for spifc progr; coodiatig budget policy with approprite State
                      agencies, the Legislatu, and pertent Fedra agencies; and servg as par of the IRCA
                      Workig Advisory Grup to resolve policy and reguato issues and ensur that varous State
                      deparents ar in compliance with IRCAISLIG policies.

                      In Caora, the th                  prgr       adminis terig the SLIAG program ar the
                                                                            components

                      Deparent of Social Servces, respnsible for public assistace; the Deparent of Health
                      Servces, responsible for public health assistace; and the State Deparent of Education
                      respnsible for education activities. Each agency wi reuest funds from the grante agency,
                      which is the Deparent of Social Servces.

                      The Deparent of Socia Serves

                      The Deparent of Social Servces is respnsible for State                                  adstrtive
                                                                                             functions associated ,
                      with effectively implementig public assistace                               progr
                                                                             to be funde by SLIAG. The
                      Deparent of Social Servces, head by ditor, has eight divisions. The SLIAG
                      functions wi reside in the Welfar Progr Division. With ths division, the Refugee and
                      Imgrtion Progrs Brach wi be                                        priy
                                                                    responsible for coordiating and
                      adsterig       the SLIAG progr at the State level. Addtional sta wi be responsible for
                      the grte agency s activities associate with coordatig and adsterig SLIAG fuds.

                      Deparnt of Healh Serves
                      The Deparent of Health Servces is respnsible at the State level for coordiatig and
                      adterig       health progrs to be funde by SLIG. Deparent functions assocate with
                      SLIG wi be data proessing, budgets, accountig, legal servces, and contrt management.
                      An IRCA Coordnation Unit has ben established with the Deparnt of Health Servces to
                      overse the functions assoiate with the SLIG progr.

                      SIl Deparent of Educaton
                      Responsibilty for            adsterig
                                                   youth and adult SLIAG-relate educational progrs resides
                      in the State Deparnt of Education s IRCA Unit The IRCA Unit is locate in the
                      Deparent s Youth, Adult and Alternative Educational Servces Division. The Chancellor
                      Ofce of the Caorna Community Colleges wi shar respnsibilty with the State
                      Deparent of Education in management and tehncal assistace as they relate to community
                      colleges.
---                 ...   ;-.i-..,   :.,";   ,,
                                                  1.-:,
                                                          ... :.-- ...:;.:.;.
                                                                                :'-b__
                                                                                         :::
                                                                                               ''-.J;i.
                                                                                                          ;;';.   :', :;.
                                                                                                                        :i.,:,-
                                                                                                                                  .--,:.",;.   ':":;'   .-....
                                                                                                                                                                 ,.i..
                                                                                                                                                                         ~~~~~   r.'-'­




The IRCA Unit provides grts          to local educational agencies, community colleges,
communty- based organzations, qualed designate entities, and other public and private
non-profit organzations to deliver educational servces to be fude by SLIAG.
                                 FINDINGS AND RECOMMENDATIONS



Both FSA and Calora were commtt to identiyig prblems and developing inovative
and effective solutions for them. Imedately followig our on-site visits, FSA was given an
outle of the State concerns identied in ths report
FINDING: Since           1987, FSA Iu held IUna conferences and issued informaton to
Stls on          implementing the SUAG program

                    The FSA held severa national conferences      begigin 1987 to shar
                    inormtion with States on SLIAG legislation, the implications for States, the
                    application   prss,
                                      and the doumntation of costs.


                    The FSA also provide States with "Question and Answer" issuances and
                    demogrphic data from the Imgration and Natuzation Servce (IS).


FINDING: Calfornia estalihed a strture to Idntfy                   organizanal and program    needs.


                   The Dep         nt of Social Servces, the   grte agency, assigned public
                   assistace coordation to its Refugee and Imgrtion Progr Brach.              Both
                   the Deparent of Health Servces and the State Deparent of Education
                   established IRCA unts to handle SLIG-relate fuctions.

                   The State has used advocacy grups, along with State and local governenta
                   work grups, to help implement the SLIAG progr in Calorna. These
                   argements have helped crss-pollate ideas thugh report of plang and
                   progrss. Also, these argements have aide diferent method for estiatig
                   prgr     costs.

                   The Health and Welfar Agency, designate by the governor as the single point
                   of contat and lead agency to implement the SLIAG program, served as par of
                   the State s IRCA Workig Advisory Grup. The Grup was established to
                   resolve policy and reguatory issues and ensur that the varous State
                   deparents comply with IRCNSLIAG statutory and regulatory reuiments.



FINDING: Calfornia also took steps to document expenditures and control disbursements.


                   The State Deparent of Education conducte workshops for educational servce
                   providers to acquait them with the varous INS car. The purose of the
. .
          .I"
                ,- -   ' '.     :... .   ,'     :"_ ",-, -';.    ..,,-,_
                                                                           o__
                                                                                 ..-   ::"..:,   "':   ---.-.;...-..-    ;"""-      -,, "".   --.LL;i.....""'':'';''
                                                                                                                                                                       '''-''




                              workshops was to show the officials how these cards can be used to identiy
                              eligible legalze alens for the SLIAG-funde education programs.

                              The State told the counties that in ordr to be reimbured for servces rendered
                              retractive to October 1987 there must be supportg documentation for these
                              servces.

                              The county agencies visite                     durg the insption                      were,        in may cass, captug
                              inormtion on eligible legalze alens retractive                                            to 1987.




      Neverteless, there are some fuds                          contrl vuerabilties. Findigs and                                   reommendations
      concerng         these vuerabilties               follow under               major topic aras.



      PUBLIC ASSISTANCE

      Assistance or Serve Activitis

      State public assistace servces to be fude include Genera Assistace, AFC­
      (unemployed parent), Supplementa Securty Income/State Supplementa Progr, foo
      staps, Med- Ca, and other programs as indicate in the State s approved application for
      SLIAG fundig. No new progrs have ben              due to the avaiabilty of SLIAG ad
      fudig. Al other servces     wi  be furshed ditly by the counties.


      In Los Angeles County, about 5, 00 new Med- Ca cass ar established each month, but only
      a sma number of these ar eligible legalze alens. The Orange County Med- Ca progr
      taes car of patients up thugh age 17. The Indigent Medcal Servces program handles
      patients age 21 thugh age 64. The Orge County Medcal Servces progr taes car of
      patients 18 to 21 for emergencies only. For genera relief, a delarative statement on
      residency is acceptable. The State has indicate to the counties that the costs attbutable to
      eligibilty workers can be claied as a SLIAG cost. In Santa Clara County, the county
      dictly provides al                 servces.

      Documentatn of Eligible Legalized Alien Status

      The norm intae proess will be used to document eligible legalze alen status. The
      question wi be asked, " Ar you a citizen?" A photoopy of the INS form 1- 688 (Temporar
      Resident Car) wi be                     ma.
                                   The counties can retractively clai SLIAG-related costs if
      they can document the servces rendere

      In Los Angeles County, eligible                     legal
                                             alen inormation wi be on- lie using specifc
      cods. For Genera Assistace, the data is computeri A manual reportg system is used
..- '-_;,-   .:".._--.... :':- :",-- ""-,   :::..   ",':"        g.,
                                                            . "",'. '   """,--   -,- ,...   ';..,:   ....;:..
                                                                                                          ..-
                                                                                                                .o::' :":   ~~~~~
                                                                                                                                ..:"-              ::;...




                      for sending monthly reports to the Finance Deparent. The application process also asks for
                      the place of bir. Follow-up is made if the responses ar questionable. For example, when
                         applicant is shown to be born in a foreign countr but indicates U. S. citizenship, the case
                      would requir furer review.


                      In Orange County, Social Securty numbers ar obtaied on all famy members. These
                      numbers ar valdated with the Social Securty Admnistrtion in Baltiore twice a year. The
                      county began identiyig IRCA eligibilty data in Januar 1988. County procedures requir
                      identiying eligible legalze alen status by photocopying the 1- 688 (Temporar Resident
                      Card) and I- 688A (Employment Authorization Card).

                      In Santa Clara County, applicants ar asked if they ar a U. S. citizen. Verication , since
                      October 1987, has been made using the 1- 688 (Tempora Resident Card), which is
                      maintaed in the applicant s record.



                      Program Costs

                      The State indicated that if the counties want to be reimbured retroactive to October 1987, they
                      must have supportng documentation for services rendered to eligible legalizd alens. Claim
                      forms have been provided to counties to clai actual costs. A ledger wil be prepared for each
                      progr at the State level (e. foo staps or Genera Assistace).
                      Counties can claim actual costs by identiying the time and related costs of providing
                      specified servces to the eligible population. A specific code AA (Amesty-Alien) is used to
                      identiy services rendered to this population group.


                      Administrative Costs



                       At the State level   tie sheets are used to identify personnel costs. Other costs ar detel1ined
                       by diect costing of supplies              and equipment to SLIAG. Indict costs are determn                       d by the
                       State Cost Allocation Plan.

                       In Los Angeles County, the cost allocation method is used in the middle month of each quarer
                       to allocate costs to progrs. Only the caseworkers complete time sheets. All other costs are
                       put into support of the caseworkers. No dict charge is made for admnistration. Orange
                       County has its own cost alocation method. Santa Clara County computes admistrative costs
                       as 60 percent of the cost of services rendered.

                       Drawdown of Funds and Cash Balances

                       The Deparent of Social Services is responsible for drwdown of Federa funds. Briefly, the
                       agency prepares funding requests for all th deparents-Deparent of Social Services,
, .,
       -o""-
               ;",   :--"'   -:""""   '''_.   "", ....
                                                         .IO_
                                                                ..:"'_    ";';- ~~~ ':"   C::
                                                                                                ..,' ';' ':_   '; :''!'   ...''   &.'   :''   ''' '''''
                                                                                                                                                          '''':'1.'',;,
                                                                                                                                                                          --,,




               Deparent of Health Servces, and State Deparent of Education. Funding reuests
               ma no sooner than              th
                                         days before they ar                        nee
                                                                         The reuest goes to the fiscal agent
               (Ban of America). Once reeived the fiscal agent sends fuds to the State trasurr s office
               for trsmission to the State controller s offce. If, for some reason, a large cash balce was
               discovere in the peodc report to the State, subseuent SUAG payments would be
               reuce

               PUBLIC HEALTH ASSISTANCE

               Assistance or Serve Activities

               With the Deparent of Health Servces, public health servces and tratment progrs
               cover tuberculosislleprosy, sexualy                 trsmitt diseass, labotory support, imunizations,
               periata servces, famy plang, chil                 disabilty prevention , and IRCA
                                                                         health and
               subvention. IRCA subvention includes a varety of public health servces not specifc to other
               avaiable      progr.Public healthublic assistace includes Calorna Chidren s Servces
               and the Adolescent Famy Lie                Prgr
                                                       Public assistace includes the Medcaly Indigent
               Servces Prgram the County Medcal Servces                              Prgr,
                                                                       and priar car clics.

               No new progrs have ben                    ad
                                                  for FY 1988 beause of SLIAG fundig. Envinmenta
               health and foster car servces have ben                    ad
                                                             for FY 1989. Those servces provided                                                             ditly
               by the Deparent of Health Servces include laborator servces, imunizations (the State
               purchass the seru but the counties                    adster
                                                              it), Chidrn s Servces (although    is split                                        th
               with the counties), Famy Plang, and Chd Health and Disabilty Prvention. The State
               contrts with priar car clics to render some              health care.      pri
               In Los Angeles County, thee servces ar contrcte out. These ar obstetrcal clics, truma
               car servces, and emergency room servces. Orange County health servces include Indigent
               Medcal Servces for persons age 21 thugh age 64, which the county took over frm the
               State several year ago. Santa Clar County offers simar                                  servces.
               Documentaton of Eligible Legalized Alien Stats

               For puroses of filg the SUAG application,                         cert
                                                                  public health program ar classified as
               public assistace. Ths reuies identig individual eligible             alens in order to          legal
               document costs. The pertent INS car wi be reueste for verication puroses. The
               counties have ben reuestig ths inormation since October 1987. The policy is to ask for
               the applicant s status afr the servce has ben rendere Varous method of identifyig
               eligible legalze alens have ben adopte by the State, which ar (1) actual head count
               (which is the most dicult to obta), (2) random sample of the universe, or (3) sample of
               servce ara or users.
. ~   ..:.   :,,-,    ,.;               ""--   '---_'._------------   --------.--..----.------ --.. ~- -."




      Los Angeles County found that samplig eligible legalze alens would identiy more SLIAG
      costs than using their system to count individuals. Samples of inpatients were taen on two
      occasions. The sample data was obtaed frm bi- ligual sta going to the homes of the
      persons who had ben in the hospita. In ths settg these individual were more liely to
      indicate their alen status than in the hospita envinment. Ths County indicate ths gave a
      more accurte count of those persns using SLIAG fude servces. In Orge County,
      adtional sta have ben      ad     to identi the eligible    legal alen population. The 1- 688,
      Tempora Resident Car or I- 688A, Employment Authorzation Car issued by INS
      identiy the eligible  legal    alen patients by an alen registrtion number            with    begig
      A9. In Santa Clar County,   forze        procurs have not yet ben established
      FINDING: Publi healh assistance programs need definitive gudelines/rom the Stat                                 on
      how to identify eligible legalud aliens.

      Both Los Angeles and Orange Counties believe the State s approach to veriyig eligible
      legal     alen status is fragmente To date, only two State progrs have indicated the
      documentation neeed to verify eligible legalze alen status. The Adolescent Famy Lie
      Prgram wi accept either a facsime of the 1- 688, Temprar Resident Cad or I- 688A,
      Employment Authorization    Ca      The Community- Bas Periata Services wi accept any
      one of the followig   th    pieces of identication: . (a) a facsime of the 1- 688, Tempora
      Resident Car or I- 688A, Employment Authorization Car (b) the amesty application form
      or receipt for application fee, or (c) the number on the INS card or receipt. Ths                      proess
      causes more adstrtive workoad beause of the inconsistencies in                          obtag eligible
      legal alen verication.
      RECOMMENDATION: The Stat should issue directives to the counties to ensure greatr
      consistency in documentng the stats of eligible legald aliens for public healh servces.


      Program Costs

      The State indicated that counties can use either the actual expenditus, sample method,
      population ratio method to identi costs for public health assistace servces. For those
      public health servces that ar considered public assistace for SLIAG reimburement
      puroses, the counties must trck actual costs of servces rendered to eligible legalze alens.

      Los Angeles County sta indicate they had not reeived instrctions frm the State on how
      to determe alowable progr costs. The county wi captu whatever cost informtion the
      State reuests. Orange County is also waiting for State instrctions. Once guidelines have
      ben issued the county intends to negotiate with the State on method of determng ratios
      and samples. Santa Clar County, not havig any State instrctions, does not know what costs
      to clai or how to document these costs.
Administratve Costs


At the State level, sta uses    tie
                                  sheets day to reor SUAG-relate activities. These        tie
sheets ar use to apporton costs by    progr    These costs ar report on the HCFA­
quarrly expenditu report form. The adstrtive cost center includes salar, frge
benefits, and a percentage of operatig and equipment costs. The indiect cost rate is 25
percent as determed under the Cost Alocation Pla pertent to public health.

In Los Angeles County, no prours ar yet in plac to identi        adstrtive   costs. A
possible samplig of employee servces is being conside Orge County uses           ti sheets
to reord adstrtive tie        alocate to prgr.   Admstrtive     costs ar  computed  as
ratio of SLIAG costs to tota costs. The Orge County Health Deparent s indiect cost rate
is 18 percent. Santa Dar County captus     adstrtive costs in relation to tie spent
progrs.
Drawdown of Funds and Cash Balances

Al requests for SUAG fundig would be mae with the Deparent of Social Servces, the
grte   agency. Up to a 25 percent advance can be mad to a
                            wi be reuced as clai
                                                             pri
                                                            care clic or smal
                                                   ar submitted for reimbursement. Clais


                                alert
county. The cash advance
for reimburment wi be applied agaist the cash advance. It is unely that large cash
balances would occur. However, if large cash balances wer note the State s Audit and
Investigations unt   would be


Interagency trsfer of funds is not done at the county level. In Los Angeles County, SLIAG
funds would go to the trasurr-ta collector and then to the auditor-contrller for eventual
trsfer to   the health servces fund Al SLIAG fuds wi go into one ledger account. The
State has not yet issued any gudelies on th proedur. Lage cash balances would not
occur because al servces are paid for by reimbursement. Orge County Health Deparent
sta ar not aware of any proedurs for the trsfer of SUAG funds frm the State to the
county. Cah balances probably would not occur. In adtion, Santa Clar County sta
indicate that cash balances probably would not occur.


EDUCATION

Assistance or Serve Activities

Servces rendered are adult education and kidergarn     thugh gr      12. Technical
assistace wi be furshed to educational institutions by the State Deparent of Education
and the Chancellor s Offce of the Caorna Community Colleges. No new progrs have
ben  ad    due to the avaiabilty of SUAG fundig. The community-       bas organizations
and qualed designated entities wi provide some of the educational functions.
....J   "'_':--   .._"""'
                            ..w._-,,,
                                        ""'      ....~~~ ..J
                                              _.._             -'-   -,,"""
                                                                              .._+a'-=-'-,-­   ----""-'   '- -'   -----   ""'   ''--''--'




            Educational servces ar  rendered though grts with varous facilties arund the State.
            Services rendered are English as a Second Language classes and citizenship skils classes.

            Documentation of Eligible Legalized Alien Status

            Identiyig eligible legalzed alen status wil be incorporate into the norm enrollment
            process. The State has held workshops for educational servce providers on obtaning this
            information. The workshops for kidergarn thugh grde 12 acquaited educational
            servce providers with the varous INS car and how to use them for identification purposes.
            For adults, the interview process is used. The applicant is asked, "Have Y9u applied for the
            amesty program?" At the present tie, no statewide record- keeping system exists for
            determning who ar the eligible legalze alens who qualify for educational program under
            SLIAG. The inspection revealed that the educational facilties are asking for the 1- 688,
            Tempora Resident Car or I- 688A , Employment Authorization Card, or ar utizing the
            INS' s fee receipt which reflects the "A" number assigned to each eligible legalized alien.

            Severa community colleges and secondar schools were visite as par of this inspection. At
            one college servg Orge County, approximately 10, 00- 11,00 persons are enrolled in
            English as a Second Language classes, and approximately 2, 500 are eligible legalzed alens.
            One of the requirements of the SUAG progr is that eligible legalized aliens be in U.
            schools for less than 3 complete years. At this college, information is obtaed on whether an
            eligible legalized alien was in that school for Iess than 3 complete year. However,
            information is not obtained as to whether they attended any other schools.

            Program Costs

            The State is developing guidelines for determnig actual program costs. Notices have gone
            out to al providers to document costs retroactively from October 1987 thugh June 1988.
            Providers must have had a grant in place by May 13, 1988, to be reimbursed from that date
            forward. The accounting system wil be moded to add another fund account to record
            progr costs. The amount reimbursable under SLIAG is capped at $500 per eligible
            legalized alien per year. Each provider or school entity must keep a separate accountig of
            these funds.

            A visit to a local community college in Orange County revealed that the State made its
            definition of alowable costs very restrctive. The college had received an award letter dated
            May 1, 1988, for the period October 1, 1987, thugh June 30, 1988. Costs considered
            allowable were (1) essential staf development for personnel providig instrction to eligible
            legalized alien students, (2) requird supplementa record-keeping/documentation costs, and
             (3) supplementar educational services necessar to enable eligible legalized alien adults to
            attai permanent residency status and naturalzation. However, a revised award letter dated
            July 14 ,
                    1988, was received that sharly reduced the allowable costs. This letter stated that
            only costs associated with assessment and evaluation would be curently alowable for
            FY 1987- 88.
---.....   """                            "'---"-'   '''.   ''--''--' ----''   ---   ,..- --   -".   -_.   . ' -'~   '--   ----_",   ,-----­

           Administrative Costs

           The SLIAG provisions    lit State educational agency adstrtive costs to 1. 5 percent of
           tota SLIAG educational costs. Tune sheets wi be used to captue
           progr.    Th    SLIG-related education positions ar funde by the State Deparent of
                                                                                               ti
                                                                               spent on the SLIAG

           Education and are not charged to the SLIAG progr.

           The State Deparent of Education is using a provisional indiect cost rate of 34 percent of
           payroll costs, which goes back to 1979 and was updted in 1983. The communty colleges
           use a 10 percent rate, provisional since 1981. An Orange County communty college has no
           gudelies frm the State to determe adistrtive costs. No                       tie
                                                                              sheets are used to
           determe sta tie devote to SLIAG activities. The college wi develop its own
           methodology for determg adstrtive costs for SLIAG puroses.

           In other aras reviewed in Caforna, schools were improvising methods for                         claig
           adstrative costs. Most were using         tie
                                                      sheets as the generay accepte manner of
           determg adstrtive costs. One seconda school is planning to use school proedures
           for determg adstrtive costs thugh identiyig instrctor hour and the number of
           eligible legalze aliens receivig instrction. An apportonment will be used to record
           adstrative costs.
           For the school year 1987- 1988, an elementa school plans to have school personnel
           reonstrct how much
           would include   tie
                                   ti    they spnt on SLIG progrs
                                 spent on the application proess.
                                                                                from calenda,          notes, etc. This


           Drawdown of Funds and Cash Balances

           The Deparent of Social Servces, as the grtee agency, would handle al drawdown
           activities. The State permts cash advances of up to 25 percent of estimated costs. The State
           requires the community- based organzations to be bonde for the amount of the SLIAG
           advance. When providers submit their quarrly reports on actual costs, any excess cash
           balances would be detected The State would request a refund or make an adjustment.




           CROSSCUTTNG ISSUES
           Accordig to fmal regulations published Marh 10, 1988, States had to submit the FY 1988
           application no later than May 16, 1988. Revisions to the application had to be submitted by
           July 1, 1988, and the FY 1989 application had to be submitt no later than July 15, 1988.
           Applications were to conta brief descrptions of the State progrs or servces, estimates
           of the State s SLIAG-relate costs for each program or activity for that parcular fiscal year
           (includig inormtion on the number of eligible legalze alens residing in the State), and a
           brief explanation of the methodology used to estimate these costs.
.:O:       -'. "'--.   :'.
                               c-.
                                     -,-- -,;"   ""-'_-"..c""--,           '''-'-''''-''_   .J.   --'----   --.o.
                                                                                                                    _.,   _._   -_._     _._   ---   ---.-- ._--




       FINDING: The FSA' s policy of denying payments for servces rendered by community-
       based organizations and qualifed designated enties prior to the State s application
       approval date caused difficulties for                  the State.


       Some communty- based organizations and qualfied designated entities have provided health
       and educational services to eligible legalized aliens with the understanding they would be
       reimbursed for these services by the State. The FSA interpreted that servces rendered prior to
       the approved application date could not be reimbursed. This has placed a financial burden on
       these providers, who have rendered the servce but may not get paid for it.

       RECOMMENDATION: The FSA should analyze the effect of its policy to deny retroactive
       payment to community-based organizans and qualifed designated entities for servces
       rendered in good faith, and determine whether a modificaton to its position would
       warranted.


       FINDING: Conficting interpretations of the term "public charge" has caused uncertain­
       ties for aliens as to what services they are entitled to receive without fear of deportation.

       Another situation causing concern to the State is the defmition of "public charge. " Some
       people are        afd
                         to identify themselves as aliens for fear of being considered a public charge.
       Some qualifed designated entities are tellig alens not to apply for SLIAG-related progrs
       for the same reason. The situation has caused uncertnties for alens regardig benefits they
       may be entitled to and if acceptig these benefits would subject them to possible deporttion.

       RECOMMENDATION: The FSA and the INS should further clarify what is meant by
        public charge " and widely disseminate this information to the aliens who have raised
       concerns about their resident status.


       FINDING: State guidelines are needed to determine allowable costs in public health
       assistance and education programs.

       Los Angeles County Deparent of Health Services sta indicated they have not received
       instrctions from the Deparent of Health Servces on how to determne alowable                                                     progr
       costs. Th county wil captu whatever cost information the State requests. Orange County
       Health Care Agency staff are also waiting for State instrctions. Once guidelines have been
       issued by the State, Orge County sta intend to negotiate with the State on methods of
       determning ratios and samples. Santa Clara County, without State instrctions, does not know
       what costs to claim or how to document these costs.

       RECOMMENDATION: The State should develop a methodology to identify allowable
       public health assistance program costs.

       Although the State Deparent of Education is developing guidelines for determning
       allowable educational program costs, a secondar school indicated that no instrctions have
been received from the State Deparent of Education on determning costs. An elementar
school revealed that it did have information from the State as to alowable costs. They were
referencing a State publication entitled " Californa State Education Plan for State Legalization
Impact Assistace Grants. " Other schools visited indicated that either they had no State
guidelies or they were awaiting receipt of guidelines. In the case of one community college a
stadad community college accounting maual was used

RECOMMENDATION: The State should develop guidelines for all providers of
educatinal servces indentifying allowable costs for SLIAG purposes.
~~~   ..;..   w._.      ;";"o.- .




                              OIG RESPONSE TO COMMENTS


  The FSA and the State of Caorna both commente on the drt report.

  The FSA

  The FSA has generaly   agr    with the OIG report findigs and recommendations. The FSA
  has taen a number of steps to improve implementation of the SLIAG progr includig
  claryig program policies and proedures. We have moded cert aspets of the report
  based on the comments reeived frm FSA.

  The FSA questioned the statement that the new population would signficantly increase public
  assistace and public health assistace servces. Early estiates indicated that large numbers
  of alens would qualy to access the SLIAG program. The report recogniz that inormation
  obtaed durg the review determed that substatial incrases in workloads and
  expenditus could occur in these program areas as well as in education. However, we
  understad frm recent discussions with States ' offcials that demand for servces nationally is
  falg behid     earlier projections.
  The draf report states that "For purose of   fig the SLIAG application, cert    public health
  progrs ar classifed as public assistace.
  The FSA replied that they see thspriary as an issue of cost identication and that they
  work with the States to develop method of documentig costs which ar consistent with
  FSA' s responsibilties as stewar of public fuds. We believe that FSA' s actions to identiy
  alternative method is responsive to the nee of the   progr
  We contiue to believe that a strct interpretation which permts public health costs to be
  claied only for specifc eligible legalze alens is burdensome to the States and, in many
  cases, would reui     considerable revisions to the States ' system or statutory reuirments.
  However, we do agr that FSA's use of alternative systems, such as the Cost Documentation
  System and a revised population ratio method system which reflects usage, would be a
  positive effort to enhance cost effectiveness without reuirg States to develop new systems
  or make considerable revisions to present systems. The population ratio method could be
  revised to consider not only eligible legalize aliens in the servce population but also use of
  those services by the eligible legaled alien population base on informtion aleady obtaned
  frm progr experience. Where appropriate, other alternatives might be used which would
  produce a more effcient system for the States and address congrssional intent that the States
  would not be required to establish new or elaborate systems.

  The FSA made numerous comments to identify      cert
                                                   matters of fact, policy, or proedures.
  We have included these comments verbati in Appendix B.
The Sta of California

The State has generay   agr with the OIG repo fidigs and reommendations. Their
comments ar include verbati      in Appendi C. The comments clared            the State
organzational strctu use to adster the SLIG progr as well as the report
descrption of the State s drwdown of fuds and the handlg of cash balances. Since
ti                            taen signcant
    of the on-site review, the State has
SLIG progr though procedur and             system changes.
                                                                                           the
                                                             steps to effectively implement the
':_   .!",   ,;-~~~
                   :;;;..:'i:
                              '::': ::..   ....   ~~~~ :n:.   ''   -:-'_   ~~~~         ,.:..(.   '" .-. '   ;:",-.




                                                                           APPENDIX A


                                                                    GOOD PRACTICES
A number of pratices have ben identied that other States could shar.

    The State has use advocacy grups, along with State and local governnta work
    groups, to help implement the SLIG progr in      Caora.   These argements have
    helpe cross-pollate ide thugh report of      plag    and progrss. Also, these
    argements have aide dierent method for estitig progr costs.

    The State Deparent of Education conducte worhops with school offcial to
    acuait them with the varous INS car. The purse of the worhops was to show
    the offcials how these car can be use to identi eligible legalze alens for the
    SLIG-funde education     progr.

    The State has taen steps to establish an organzation that wi help  adter    the
    SLIAG progr. The Deparent of Socia Servces assigned coordatig public
    assistace to the Refugee and Imgrtion    Progr      Brach. The Deparent of Health
    Servces establihed a separte IRCA Coordation Unit. The State Deparent of
    Education has established an IRCA unt in the Youth, Adult and Alternative Educational
    Servces Division.

    Al of these IRCA cooatig units have develope the expertse necssar to
    implement the prgram at the State level. SinceCaoraadminis ters may of its
    progr at the county level, these coordiatig unts wi be the focal point at the State
    level for interation regardig SLIG implementation. The Deparent of Social
    Serces is the grte agency for the SLIAG fuctions at the State level


    The Health and Welfar Agency, designate by the Governor as the single point of
    contat and lead agency to implement the SLIG progr, served as par of the State
    IRCA Workg Adviso Grup. The Group was established to resolve policy and
    regutory issues and ensur the varous State deparents comply with IRCNSLIAG
    policies.
.-- .\,;:,
             :;i   .0;:"::;"
                               ;;;, :"::   ~~~   .:.:   ':.   ;.:.
                                                                     G.::'':'
                                                                                  ~~~:::'l.
                                                                                :-_           ..__     ~~~ :;-   .,...     ~~~
                                                                                                                         ,':
                                                                                                                                 oL;
                                                                                                                                       ~~~   .. -
                                                                                                                                                    "r
                                                                                                                                                         ;,, ;:, ,--,..
                                                                                                                                                                    ,~,.
                                                                                                                                                                       ;;'   ;''''   ':'   ;''   -'-   ~'   ,.




                                                                                                     APPENDIX B



                                                               FAMILY SUPPORT ADMINISTRATION COMMENTS
...
 - -- ' .._ -. ",   .. . (;'
                         :,:,_...-. ,,; :-, ,,::..,,,,,;;   ..j.   ..;.:.     '-        -.:...- ,:. . "_ .-_   - .   " .':- ';_   ~-_... J,,   ... , -   _._-_. .   ..: - ",.   ';,   ."" ";-   ,,, ,,- - ...- ' . '   ""- ,,-.- .- - ,.




                                                 DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                                                                                                F3mily Support Administration



                "."..IU
                                                                                                                                                                                                                       Memorandum
                                                  August 10. 1989
                          Date:

                          From:
                                                  Acting Assistant Secretary
                                                    for Family Support
                          Subject:
                                                  OIG Draft Report: Implementation of the State Legalization
                                                            pact Assistance Grants Under the
                                                                                                                                                                     igration Reform and
                          To:
                                                  Control Act of 1986 - California (OAI-07-88-00442)

                                                  Richard P. Kusserow
                                                  Inspector General

                                                  Attached are the Family Support Administration comments on
                                                  the above draft                                report.
                                                                           Many of our coments are technical
                                                  in nature due to the complexity of the legislation and the
                                                  fact that the SLIAG program was very new at the time of the
                                                  review.
                                                  We appreciate the assistance and cooperation we have
                                                  received from you in response to our request to conduct this
                                                  round of reviews of the SLIAG program. The reports we
                                                  received are very useful" to us in understanding how States
                                                  are implementing the program.




                                                   Attachment
       -. . _ :":._   "::",.;.   :,,,_-,,,,,, '--:"._ _.- -_   ~~~ -..-   ; 'n
                                                                              '-   -'.- -".
                                                                                              :0",.
                                                                                                      .. ,-




l C.                       '1.x­
                                                                                                      \JIG DRA         RE:.:BKr':
                       Implementation of the state                                                                   Lealization X-pact Assistace
                                                                                                               Grants
                                 Under the Immigration Reform and Control Act of 1986 ­

                                                   state of California


         The Family Support Administration' s comments are divided into
         three sections:   Comments on background information and other
         narrative material that does not relate directly to the draft
         report' s findings, comments on the findings, and responses to the
         draft report' s recommendations.

         Narrative :
         Page 1 (Background) -- The draft report says, .This new

         population will increase the demand for State public assistance

         and public health assistance services significantly. The draft
         report isn't clear whose conclusion this is or upon what data and

         analysis the conclusion is based. The final report should

         clarify these points.


          In the course of implementing SLIAG, we have discovered that

          neither state and local public health programs nor, with few

          exceptions, public assistance programs, inquire about legal

          status. This suggests that at least some aliens were using

          these services before legalization and that newly legalized

          aliens do not represent a " new population" for public assistance

          and public health assistance services. Preliminary cost data

          from states suggests that newly legalized aliens are accessing

          public assistance services at rates far lower than the general

         population.    There are indications that a backlog of public
          heal th needs existed and was identified during the medical

          examinations required of all applicants for legalizations.
          However, there is no data to suggest that, other than this

          temporary bulge in demand for public health services, newly
          legalized aliens will generate a significant increase in demand
          for public health assistance or public assistance services.
          Page 2 (Background) -- The draft report says, .States must
          develop a method acceptable to FSA for determining
          administrative costs. iil We note that several methods for
          determining the share of administrative costs in ongoing
          programs that are allocable to SLIAG and which are acceptable A
          Driori are specified in the regulation at 45 CPR 402. 22 (b). The
          process of determining SLIAG administrative costs (those costs
          incurred in administering the SLIAG grant itself), like all costs
          associated with administering HHS grants, is governed 
  y 45 CFR

          Parts 74 and 92 and relevant OMB circulars.





                                                                                                              B-2

. " ..,",",-, ..-
'''''"'
             '0_
                    .. ,   ':'''--- '-' .:",..,; , -;' :: '-   ;".   '''' ,:   "'.            .:\.;':
                                                                                           . ,-...
                                                                                              . :' ':   '; ....:' .':';,?,:':' . : .
                                                                                                                                       i:;.
                                                                                                                                              - -" . . , "".'.'   .-...., ':...- :: .:..   .;-
                                                                                                                                                                                                 .""''-I''
                                                                                                                                                                                                             -,,   .. -   .. - ,-,, ..;..,"-''-, ''....   .-. ,~. :.._   :.:_:",   ':--.




                                                                                     c-.




                            paqe 5 (Assistance or Service Acti vi ties) -- The draft report
                            states, .State public assistance , services to be funded by SLIG
                            include General Assistance, APDC-U (unemployed
                            Supplemental                                             Secuity
                                                   Inco.e/State Supplemental Proqam, food
                                                                                                                                                                                                                          pat),
                            stamps, and Medi-cal. No nev             have been added due to the                                                        proqaJ
                            availability of SLIAG fundinq. The only                which the                                                                                                       proqua for
                            Departent of   Social Services provides direct assistance is the
                            adoption progam. The State viII contract out for child abuse
                            studies. All other services will be                                                        fuished
                            counties. . It is
                            assistance must .eet
                                                         to note that all
                                                                             directly by the
                                                                    Pirst they :8st be
                                                                                       public           imrtt
                                                                                                         thee criteria.
                                                                                                                             progam of
                            qenerally available to the population of the State. Secondly,
                            they must be .eans-tested. Lastly, they aust provide for the
                            subsistence or health of the individual. The requirement that
                            the proqam   be qenerally available would preclude the State from
                            developinq any progam for 8 eliqible legalized aliens.
                            Additionally, it is not clear what is aeant by child abuse
                            studies. The statute and reqlation would preclude the State
                            from developinq or conductinq studies on bealf of 8 eliqible
                            leqalized alien.
                            clear.
                                                The final report should      these points                                                                                                                    aae
                            Page 5 (Assistance or Service Activities) -- The draft report

                            states, "The state has indicated     the counties that the costs

                            attributable to eligibility workers can be claimed as a SLIAG
                            cost. .. The final report should note that acceptable methods for
                            determining SLIAG and program administrative costs are outl ined
                            in Federal regulation. The regulation at 45 CFR 402. 22 discussed
                            several methods for determining SLIAG and program administrative
                            costs in ongoing programs. This section of the regulation also
                            permi ts use of other methods for determining proqram
                            administrative costs that will document that these costs are
                              allowable, allocable to SLIAG, and reasonable.

                            Page 6 (Program Costs) -- The draft report says that "The state

                            will not qo below the proqram level to identify these costs for
                            SLIAG fundinq purposes.   We cannot determine from the
                            description what is meant by this statement. We request that the
                            final report provide clarifica ion.

                            paqe 7 (Administrative Costs) -- The draft report identifies

                            several methods beinq used by the state and the counties to

                            determine administrative costs. The final report should note

                            that acceptable methods for determininq SLIAG administrative

                            costs are outlined in the regulation at 45 CFR 402. 22, and the

                            process of determininq SLIAG administrative costs, like all costs

                            associated with administerinq HHS qrants, is governed by 45 CFR

                            Parts 74 and 92 and relevant OHB circulars.

"'   ,,- - -.' "" -.. .... ,--   :.   ' ..   '':-' ,   ,," .-   :";'.   :-''   ,"'         ,-'            ~~~     ::.         '.. ';,
                                                                                                                                        ,:l   ..,,.I
                                                                                                                                                       .':"
                                                                                                                                                              ::S......
                                                                                                                                                                          ..,;,...   .:..   ""_
                                                                                                                                                                                                  C:"
                                                                                                                                                                                                        '-'''-   ''J
                                                                                                                                                                                                                       ':'''':':   '''':'   ''---
                                                                                                 J-:''J     :.f..       J..




                                       Public Health
                                                                                     l:'
                                                                                             ssi tanJ
                                       Page 7 (Assistance or Service Activities) -- The draft report

                                        ists California Children I s Services and Adolescent Family Life
                                       Program as                              Pulic
                                                         health/public assistance. The final report
                                       should note that since the OIG program review, the State has
                                       resubmitted the California Children I s Services program under
                                       public assistance, and the Adolescent Family Life Program under
                                       public health assistance.
                                       Page 8 (Documentation of Eligible Legalized Alien Status) -- The
                                       draft report states that "For purposes of filing the SLIAG
                                       application, certain public health programs are classified as
                                       public assistance. By statute and regulation, all programs and
                                       activities which fit under the regulatory definition of public
                                       assistance or public health assistance must be categorized



                                       SLIAG.
                                       accordingly. The definitions of public assistance and public
                                       health assistance are based directly on section 204 of the
                                       Immigration Reform and Control Act of 1986 (IRCA) which created


                                       The public assistance/public health assistance categorization
                                       issue is primarily one of cost documentation requirements, not
                                       the allowability of costs associated with any particular health
                                       program. Under our regulation, States are allowed to use a
                                       single ratio of the number of ELAs in 'the service population to
                                       the total service population to establish actual costs for public
                                       health assistance programs, as defined for SLIAG. Implicit
                                       this method is the assumption that eligible legalized aliens will
                                       access programs in the same frequency and at the same cost as the
                                       general population. We do not believe this assumption to be
                                       appropriate for medical assistance programs that provide
                                       treatment to needy individuals. To the contrary, the
                                       information that we have to date indicates that allowing use of
                                       the population ratio method for these programs generally would
                                       overstate costs, dramatically in some cases. We have indicated
                                       to States that we would allow use of the population ra io method
                                       for any program for which there is an 
 empirical basis to indicate
                                       that doing so would not overstate costs.

                                        Furthermore, we realize that many public assistance and public

                                        heal th programs do not routinely collect information on

                                        immigration status but we have found that many do collect social

                                        securi tynumbers. That is why we funded and devoted substantial
                                        staff resources to developing a system that matches the social

                                        security numers of program participants with those of newly
                                        legalized aliens. This system gives States informatioa on the

                                        number of newly legalized aliens participating in a program and

                                        the cost of services to them.  It is now available and allows
                                        States to establish costs for FY 1988 as well as current and

                                        future years. Recently, we sent State SLIAG Single Points of
                                        Contact suggestions for other possible methods for establishing

    . -:-"_ "'...," .': , .:': ..
. "'-,                              ~~~ ) . ,.'    -. :.. .- ,
                                                                 "::-:' n
                                                                            :": . - " '"" -
                                                                                              cj...;   :i,.
                                                                                                              ';'   :'''' -'::'    ..
                                                                                                                                  ;2.::.: .
                                                                                                                                              ::. :';:. -   :.:.   ~~~
                                                                                                                                                                         ::':3--::.i:'
                                                                                                                                                                                         '''   ':' ::' -   -   --'   '':';'' '-- :'';   '.   "'''   ;'---_..   ,",   .... -'--'    .'
                                                                                                                                                                                                                                                                                    . - ..




                                             costS. None  of these   ;,er:.!:lti. methods requires aatting up                                                                                                                                                                     ni:'       .. ii
                                             administrative mechanisms or checking status of all program

                                             participants.
                                             Page 8 (Documentation of Eligible Legalized Alien status) -- The
                                             draft report further states that, "Los Angeles County found that
                                             sampling eligible legalized aliens would identify more SLIAG
                                             costs than using their system to count individuals. Samples of
                                             inpatients were taken on two                     opinion of the                                                       occasions. In the
                                             county, this resulted in a more accurate method of determining
                                             costs.   This method is under review by -            It is unclear                                                            the state.
                                             to us how taking a sample of inpatients would yield better
                                             resul ts than counting actuals. The regulation allows costs for
                                             public assistance programs to be established by (1) establishing
                                             costs associated with identified eligible legalized aliens, (2)
                                             using a statistically valid sample of the program' s case load,
                                             (3) " any other reliable method of cost calculation, subject to
                                             Federal review" (45 CFR 402. 21). We have made available to
                                             states a Cost Documentation System, initiated by HHS, which will

                                             enable them to establish costs based on a blind match of social

                                             security numers of program participants. We have worked with
                                             states to develop other alternative methods that do not involve

                                             inquiring into the immigration status of any individual. We have

                                             distributed information on these alternative methods to states.

                                              Page 9 . (Program Costs) -- The draft report states, "Los Angeles
                                              County staff indicated they had not received instructions from
                                              the state on how to determine allowable program costs. The
                                              county will capture whatever cost information the state requests.
                                              Orange County is also waiting for state instructions. Once
                                              quidelines have been issued, the county intends to negotiate with
                                              the state on methods of determining ratios and samples. Santa
                                              Clara County, not having any state instructions, does not know
                                              what costs to claim or how to docuent these costs.     The final
                                              report should note that acceptable methods for determining SLIAG
                                              and program administrative costs are outlined in Federal
                                              regulation. The regulation at 45 CFR 402. 22 permits use of other
                                              methods for determining program administrative costs that will
                                              document that these costs are " allowable, allocable to SLIAG, and
                                              reasonable. "
                                              Page 10 (Drawdown of Funds and Cash Balances) -- The draft

                                              report states that "Up to a 25 percent advance can be made to a

                                              primary care clinic or small                            Since payment is made by                                     county.
                                              reimbursement, it is unlikely that large cash balances would

                                              occur. " These two statements appear to be contradictory. We

                                              request that the final report clarify whether payment 
                  s limited

                                              to reimbursement.





                                                                                                                                                                   B-S

::::,­   ?,;:.' . ._ :';:   ::;,:-..;   ',
                                          oJ"	
                                                     :;.':,- ..,.:-   ""';"-   ::..:,,..-:.!   ':,   ,:';.,_:", :.., ":':\.   ":'..-
                                                                                                                                       i.'h..,,J.,-, ..'t:
                                                                                                                                                             '..':   .:.."- ..:'
                                                                                                                                                                     -             ':.._::..":...-.   ~~~~   :'- ""_   -'-   "''''




                             Education:
                             Page 11 and 12 (Administrative Costs) -- The draft report
                             indicated that "An Orange County community college has no
                             guidelines from the State to determine administrative costs.
                             Another section under Education, the draft report cited, "In
                             other areas reviewed in California, schools were improvising
                             methods for claiming administrative costs.   The final report
                             should note that acceptable methods for determining SLIAG and
                             program administrative costs are outlined in Federal regulation
                             at 45 CFR 402. 22.

                             Page 12 (Crosscutting Issues) -- The draft report states,
                             "According to final regulations published March 10, 1988, States
                             had to submit the FY 1988 application no later than May 16, 1988.
                             Revisions to the application had to be submitted by July 1, 1988,
                             and the FY 1989 application had to be submitted no later than
                             July 15, 1988. Applications were to contain brief descriptions
                             of the State' s programs or services, estimates of the State'
                             SLIAG-related costs for each program or activity for that
                             particular fiscal year (including information on the numer of
                              eligible legalized aliens residing in the State), and a brief
                              explanation of the methodolog used to estimate these costs.
                              request that the final report clarify what are the pertinent
                              issues the draft report wants to address in this paragraph.
                              Findinas (Daae ..):
                              Finding:	 Since 1987,          FSA has held national conferences and
                                                 issued information to States on implementing the SLIAG
                                                 program.
                              Comment:	          Since the OIG' s onsite visits in August 1988, we have
                                                 continued to provide assistance to States. We have
                                                 conducted several more workshops and meetings to assist
                                                 states in implementation. In October 1988, we issued a
                                                 compendium incorporating the extensive formal guidance
                                                 previously provided to States on methods of cost
                                                 documentation. We also have provided assistance to
                                                 individual States in the form of correspondencft,
                                                 telephone consultation, and onsite technical
                                                 assistance. We are in the process of conducting

                                                 initial program reviews of the major States, including

                                                 California, which we visited in April 1989. We

                                                 request that the final report reflect this continuing

                                                 dialoge with States.
                              Finding:	          California established a structure to identify
                                                 organizational and program needs.

                              Comment: It is not clear from the description of these steps

                              that the statute and regulation limit use of SLIAG funds for

 . . '...
--
            L..
                  -:-: :' . ' '-.    '':   :':"-.-
                                                     ':u	
                                                            . - .- :,   - .. " " . ' ' .""..   ,-   :--_,:' ,::.."   ':.:   :,....:,;..:'   ':;.;:':_   ",,   ;_- "':"'-': ::''
                                                                                                                                                                                  :':'P::-'   "4.
                                                                                                                                                                                                    '"':'   '::; : :"   -:__.._.   ";.., :. -, -- --_.
                                                                                                                                                                                                                                        .I
                                                                                                                                                                                                                                                                         .:..
                                                                                                                                                                                                                                                         -'._,, "'--'- .._




                                    public assistance and public health asshfcance to' &Octivities that
                                    are " generally available. This means that states may not use
                                    SLIAG funds to set up public assistance or public health programs
                                    specifically for " eligible legalized aliens. The final report
                                    should make clear how this requirement relates to the state
                                    actions featured in the draft report.
                                    RECOMMNDATIONS

                                    FINDING	                                         The FSA' s policy of denying payments for
                                                                                     services rendered by community-based
                                                                                     organizations and qualified designated
                                                                                      enti ties                                prior to the state I s application
                                                                                      approval date caused difficulties for the
                                                                                      state.
                                    RECOMMNDATION	                                   The FSA should analyze the effect of its
                                                                                     pol icy to deny retroactive payment to
                                                                                     community-based organizations and qualified
                                                                                     designated entities for services rendered in
                                                                                     good fai th, and determine whether a
                                                                                     modification to its position would be
                                                                                     warranted.
                                    RESPONSE	                                         since the OIG inspection, this issue has
                                                                                      been resolved. State was informed that
                                                                                      there is no federal prohibition against
                                                                                      entering into a contract or other legal
                                                                                      instruent with providers of communi                                                                                                               ty­
                                                                                      based primary care or educational services
                                                                                      with the effective date of the contract, or
                                                                                      amendment to an existing contract, predating
                                                                                      the date of execution of the agreement. Such
                                                                                      an agreement would be acceptable provided
                                                                                      that the execution of such an agreement were
                                                                                      permissible under state or, if applicable,
                                                                                      local law.  However, nothing in Federal law
                                                                                      or regulation requires that a state or local
                                                                                      governent assume costs of private providers
                                                                                      who serve ELAs. We furter advised the state
                                                                                      that costs incurred under such contracts
                                                                                      would be allowable under SLIAG only if they
                                                                                      met all applicable regulatory and statutory
                                                                                      cri teria. In particular, we cautioned that
                                                                                      costs under such contracts will have to be
                                                                                      fully docuented and would have to be
                                                                                      reasonable, allowable and allocable to SLIAG.
                                                                                      state was further informed that documentation
                                                                                      of all costs under contracts vOluntarily and
                                                                                      belatedly entered into by State or local
                                                                                      governments meet the standards outlined in
                                                                                      the regulation at 45 CFR 402. 21.

                                                                                                                               B-7
..
...,
 --_
 - .',          . .i::,	
         ;':. ::-      )..    ,.. ,:   ' .,-_. ";- :;':' . _   --   ',   '-   --._   , , :' :, , , .    --:, ' .._"";_ ...,
                                                                                                            :i.
                                                                                                                               :;-"-':,
                                                                                                                            'A.'        .:L':,   ';''i.\.;..:.L.',-
                                                                                                                                                                      )':   ;':.     !.:::..
                                                                                                                                                                                   .J;         .:-i,   ':/;:.J,
                                                                                                                                                                                                                  :..- ,;::;,   ;..   ::.':---'   :. .-,;-..-,.. '   .   _.,




                             FINDING                                                                   Conflicting interpretations i,t the" term-"
                                                                                                        public charge" has caused uncertainties for
                                                                                                       aliens as to what services they are entitled
                                                                                                       to receive without fear of deportation.
                             RECOMMNDATION	                                                            The FSA and the INS should further clarify
                                                                                                       what is meant by " public charge" and widely
                                                                                                       disseminate this information to the aliens
                                                                                                       who have raised concerns about their resident
                                                                                                       status.
                             RESPONSE	                                                                 Under IRCA and the Immigration and
                                                                                                       Nationality Act, the INS alone is
                                                                                                       responsible for determining whether
                                                                                                       individuals are likely to become public
                                                                                                       charges. FSA cannot establish policy on
                                                                                                       this issue. Nor can FSA disseminate
                                                                                                       information directly to the alien
                                                                                                       population.  INS is precluded by IRCA from
                                                                                                       providing names and addresses of eligible
                                                                                                       legalized aliens to outside agencies.

                                                                                                       However, we agree that it is important that
                                                                                                       all concerned know INS policy on the public
                                                                                                       charge issue. INS representatives have made
                                                                                                       presentations at               of our                                 virtally all
                                                                                                       workshops and conferences. At these
                                                                                                       meetings, States have been able to ask
                                                                                                       questions and receive direct information from
                                                                                                       the INS. We have communicated to states all

                                                                                                       information provided to us by INS on this and

                                                                                                       other pertinent issues, and will continue our

                                                                                                       policy of disseminating any relevant

                                                                                                       information that we receive.


                                                                                                       The Department also has indicated its

                                                                                                       support for a legislative change to allow

                                                                                                       States to use a small portion of their SLIAG

                                                                                                       grants to inform temporary residents of the

                                                                                                       requirements for adjustment to lawful

                                                                                                       permanent resident status and of the rights

                                                                                                       and responsibilities of lawful temporary

                                                                                                       residents. Such use is not permitted under

                                                                                                       current law.

--   .:::-:.. ;:.:   ~~~           ::._
                           J;...::;.
                                          ';   ,-..     ....".. '''':'
                                                      c.,
                                                                         :''':-_   " ... :-, ,, -   :"- . ,,,,   :,,   ),,- -,,,",. --,:.,;,.. ,""'..,   ."   :"-"     -./
                                                                                                                                                                     ';-   ~~~   ...' ,   :-:.._-
                                                                                                                                                                                                    .1';
                                                                                                                                                                                                           ~~~   -'':r-   "".c,­




                                                                                                            APPENDIX C



                                                                                   CALIFORNIA' S COMMENTS

                                                                                     .. ,.         ".                      ,.. .



. GEORGE DEUKMEJIAN.             Governor                 STATE OF CALIFORNIA

                                               HEALTH and WELFARE AGENCY
                                                        OFFICE OF THE SECR

                                                       1600 !'ili..TH STREET, R;:,       ,,; .;S
                                                        Sacramento, California 95814

                                                                  (916) 445- 6951
                                                                  SEP        1989




                       Richa P.       Kl1sserCM,   Instor General
                       Office of     Anysis &      Instion
                       HH Office of Inspector             neral
                       Cohen Bu lding,       Ro
                                           5660
                       330 Indepndence Avenue
                       Wahingon, DC 20201
                       De Mr. Ku..c=:sercw:
                       Put
                       yo
                           to your reqest an subseqent
                                     sllbnittiDJ th enclosed conts
                                staff, I am
                                                                             disclls.c;ion wi th Mr. Hugh (Mns of
                                                                                                        which constitute
                       Californa s resnse to yo                drft instion                  report, " Imlementation of
                       the State Lelization Asistance Grants tmder the Immigrtion Reform 

                       Control Act of 1986 - State of C.alifomia.


                       It was a pleas to work wi th yarJ:r staff who were thoroughly
                                                  thir  reiew of a broad scope of
                       profesional an well orgnized in
                       issues and procedures affecting                  Caiforna s imlemntation of IRCA. If
                                                                      the reiew of yo drft or
                                             futhr asistance to yo in not
                       I may be of any
                       the explication of ollr
                       at (916) 445-0196,
                                                         cots,            heitate to telephone me
                                                                         pleae do


                                                                           Sincerely,



                                                                           RICH A. EPIN
                                                                           Spial Asistant
                       Enclos



                       cc: Ka     Hugh R.
                                            City, K)

                                  Normn L.
                                  DHHS
u -- '
         .:,   :;.'. -   :.;.. "
                                .-:c'-
                                       '.: ::.:: , ..   --:,
                                                           ''':'i.,
                                                                      ''..-     :. :: ' ::' : "::;.- _ :. . . -, ' ,.. . - ' .' - , :'   .:.   ,,,   . ..      " .,,' -,,-" _ : . ;: - "
                                                                                                                                                            ' _d
                                                                                                                                                                                                  \.   . - "'   :"- - . , ,
                                                                                                                                                                                                                              t.
                                                                                                                                                                                                                                   .. '- -..... -.,,
                                                                                                                                                                                                                                                       J;_
                                                                                                                                                                                                                                                             ''-
                                                                                                                                                                                                                                                                     0.
                                                                                                                                                                                                                                                                          ' .. : ., ,- ;"',--,   - -.':... '
                                                                                                                                                                                                                                                                                                               '"'',--P'.
                                                                                                                                                                                                                                                                                                                            '..




                                                                      Slate or                      Callrornla                                                                                                         Departmenl or Educallon

                                                                      Memorandum
                                                                      To: Richard                                                  Epstein                                                                             Date:                                 6/27/89

                                                                      From: Rlcharo L StIles. Manager\
                                                                                            Amnesty EOucatlon Offlce merly the IRCA Unlt)


                                                                      Subject: Education                                                                         Response to Ofrtce of Inspector General
                                                                      Draft Report

                                                                      The following is the Department' s response to the Oraft inspection report
                                                                       Implementatlon of the State Leaalization ImDact Asslstance Grants Unaer
                                                                      the !mmlgratlon Reform anO Control Act of 1986 - State of Callforma " The
                                                                      comments IncluOe correctIon of erroneous facts ana actlOns taKen oy tt,e
                                                                      Department subsequent to the August 1988 conclusion of the report study
                                                                               riod,

                                                                       1) The report should indIcate the report study period on the cover page and

                                                                      as part of the executive summary, I t would be appropriate to insert the
                                                                      tlme perIod In the last sentence of D3ge 1. !t snouJa be mentIoned 39
                                                                      page:2                 ot         tne reDort unaer Memoaology

                                                                      2) The Department of EducatlOn has renamed the IRCA Unit the                                                                                                                                 Amnesty
                                                                      Education Office and it is located in the Department's Curriculum and
                                                                      Instructional Leadership Branch. The Deputy Superintendent is James
                                                                      Smith, The speclflc division          Migrant ana Amnesty EaucatlOn DivlS10n                               IS        tt'e

                                                                      wIth John R. SChaeffer as DivISIon Director, i recommena msertma on pace
                                                                       , thIrd line - At the time of thIs study - Defore tne secona semence
                                                                      beginnmg w1th " The IRCA Umt"

                                                                      3) The   Amnesty Education Offjce provides grants to local educatlOnal
                                                                      agencies. Therefore, substItute the word " grant" for " contract" 1n the first
                                                                      line of the second paragraph on page 3 and all other places the word
                                                                      contract is used



                                                                      4. The Department conducted    workshoDs for all educational service
                                                                      provlOers. ine wora " scnool otTlclals " usea unaer me tlrst cuilet on page 5,
                                                                      tends to 1mply only pUblIc agenc1es. Smce Callforma s educat10nal system
                                                                      consIsts of a coalition of private and pUblic providers , I recommend
._
  :i.-
         :..   ,-,
                     j'J :i:' i.:   :.i. r.:-
                                                :/':':'-:   -"   )..
                                                                  :::.    .--=:,-:., ,;, ,   ; :_        ':-:;:. \:::::. ': . . ' '
                                                                                                    ..");;_                           !,,:::'   .-, :,.:. :::.. ' "   ;:""   ; -," ' --.. " : .:.. . :' ...    ::'.:. . ,-,.          :",-.'' ;,::..                 ~~~~
                                                                                                                                                                                                                                                          ';-",::;;,,,      ::,:;..      ~~~


                                                                   SUbStItuting the term " educatIonal                                                                             servIce providers "                                                 for " SChool         offlc1als
                                                                  nere ana throughout the report.

                                                                  3) The report states on page 10 under the head1ng - Documentation of
                                                                  Eligible Legalized Allen Status - " At the present time, no statewide record­
                                                                  keepmg system exists for determlnlng who are eligIble legalized aliens who
                                                                  qualIfy for progrfams under SLiAG. Although it 1s correct that there was
                                                                  data management system utilized by the educattonal service providers
                                                                  dur1ng the study report period, the IRCA Pre- enrol1ment Instrument was
                                                                  being reviewed by various state agencies. The pre- enrol1ment appraisal
                                                                  developed by the Comprehensive Adult Student Assessment System (CASAS),
                                                                  was  ready for distribution by late fa11. The CASAS project conducted
                                                                  workshops throughout                                                          tt'e state to provIde                                                           training In the use of the
                                                                  Instrument. AgencIes were                     materIals and ongoing                                    provIded with                                         free

                                                                  technical assIstance. The pre- enrol1ment appraIsal process provIdes
                                                                  information on students educat10nal history, salient demographic
                                                                  characteristics. and data supporting temporary residency status.
                                                                  addition , potential students are educat10nally appraised to determ1ne their
                                                                  ability to speak and understand Engltsh and knowledge of the history and
                                                                  government of the United States. The data col1ectton form clearly
                                                                  identifies the A                                          number of the student and whether the student IS adjusting
                                                                  as a pre-82 or SAW.

                                                                  4) The section ,                                          Program Costs, on page 11 ,                                                   the second paragraph of the report
                                                                  states that " the State made its                                                                                            definition of al10wable costs very
                                                                  restr1ct1ve.                                         It needs to be clar1f1ed why these costs were narrowly
                                                                  defined. For FY 1987-88, there was no budget language      governing al10wable
                                                                  costs. The Governor   s State of the State Address for Budget Year 1988-89
                                                                  offered gUldel ines for al10wable costs tt'at only IdentIfied assessment as an
                                                                  allowable cost above the service hours provIded multIplIed by the statewIde
                                                                  average revenue limIt for k-12 adult                                                                                          educatIon programs computed                                                           on an
                                                                  hourly basts. Therefore, the original approvalletter was superceded by this
                                                                  airective from the Administrat10n. Agencies were sent a second letter that
                                                                  adv1sed them of the allowable costs. ThiS paragraPh is also confusing
                                                                  because it only                                            discusses al10wable costs in terms of                                                                                       ancillary costs.
                                                                  does not ment10n   that a11 tnstructional costs incurred by el1g1ble newly
                                                                  legalIzed persons are relmburseable oy muitlplying the servIce hours by the
                                                                 statew1de average revenue I1m1t for k-12 adult education programs
                                                        c:       ('ompl.t
                                                                          d on an hourly baS1S For 1987-88.. agenc1 s wer ab1e to clalrn
                                                                         'to)                per instructional hour.


                                                                  5) The bottom paragraph of page 11 discusses adm1n1strattve costs. Th1s
                                                                  section 1s m1sleading because tt discusses                                                                                                  state operations budget and                                             local
; , , ;'
           ':';":2
                     :;"   ::. .-"-    :(:;.   :..
                                                     : 1:-
                                                             '.:. ,.:   :: .   0, '
                                                                               : - --, ,-, , .   ... ' .. .._-                     - :   "':'... "". .:::::.:.,-,
                                                                                                                                                     '
                                                                                                                                                               i,
                                                                                                                                                                  :,-,...   , ,. ' --' '-_.;   :;;, '. :;.:;.:: ::.            ~~~
                                                                                                                                                                                                                      ..::.: ..1
                                                                                                                                                                                                                                     ":- ",.."




                                                                                      il   ~2


                                      provider administrative costs as If they were governed bv the same prov1so.
                                      In fact, only the state operations budget IS limited to 1.5% of the total
                                      educational costs. Local educational providers have no such limitation, The
                                      California State Department of Education School Accounting Manual clearly
                                      def1nes budget classifications and al10wable expenditures. AI1 public
                                      agencies should be familiar wtth this document.


                                      6) The second paragraphof page 13 correctly detailed the major problem
                                      faced by community-based organization and Qualif1ed designated entities
                                      that prov1ded health and                                   educational serv1ces 1n " good                                     faith" to                                eligible
                                      legalized aliens in 1987 prior to the approval of their application.                                                                                          The issue
                                      was final1y resolved in late fall , permitting the Department to correctly
                                      reimburse these agencies for costs  incurred between October 1 and May 31.
                                      However , the delay m receipt of funds caused serIous cash flow problems to
                                      private non- proftt provIders who had limtted resources,

                                      7) The         executive summary, page iii ,                                        indicated that state guidelines are
                                      needed to determ1ne allowable costs In publ1C health assistance and
                                      education programs. I support this finding, however , stronger emphasis
                                      should be placed on the fact that Cal1fornia was the only state to offer
                                      educational programs in 1987. There were no final regulations from INS,
                                      and SLiAG leglslatlOn was stil1 bemg defmed and Interpreted. By December
                                      agencIes were provIded wIth gUldelmes for clalmmg allowable costs. The
                                      Department conducted several regional workshops with providers to                                                                                                         explain
                                      how to claim allowable                          costs. The Department focused particularly on
                                      pr1vate non- prof1t                      agencies, offering 10 reg10nal workShOPS w1th1n a two-
                                      month period. The Department wil1                                               publish a   Program Operations Manual on
                                      or before October 31 , 1989 to further assist                                               providers. I have no Quarre I
                                      with the finding Out argue that                                            more clarification of the sltuation IS needed.

                                      Th1S fmdmg IS further d1scussed on page 13 of the report. In the last
                                      paragraph , they ment10n that Orange County staff             waiting for state
                                      instructions. I t further states that " once guidel ines have been issued by the
                                      State, Orange County staff 1ntend to negot1ate w1th the State on methods of
                                      determining ratios and samples. The paragraph does not indicate if Orange
                                      County staff are from pubHc health assistance or education programs.
                                      EducatlOnal service providers already nave an accountaOil1ty data
                                      management system in place, the IRCA Pre-Enrollment Appraisal.
                                      Therefore, they do not r'eed to negotlate wHh the State on methods of
                                      determining ratios and samples.

, ,-       ;.            ,,,,-             ':'   ':,,: --..--,
                                                            .. :,:;   :::   .-   ;"':.. ':.': ,.. '",_ ::'   ;.. ; ..-",-;;   ..   '- .   :, -.   ::"   :' , - '."   ,"~   :.   :- ,-,'-" ''',,   ",;""                ,:;:,- ::.::.-   ..": ........   ..   '.   ;-'
       c. '     :'f!.,           .:c.:.:.;"' ::,L.                                                                                                                                                        ';2.-




                         Ste of Caifornia                                                                                                                                                                         Healtb and Welfare 19eD


                         MEMORANDUM

                         To:                         Richard Epstein
                                                                                                                                                                                                                  T';;t.                  June 28, 1989
                                                     Spec ial Assistant - IRCA
                                                     Heal th and Welfare Agency
                                                     1600 Ninth Street, Room 450
                                                                                                                                                                                                    Subject:                              Office of Inspect
                                                                                                                                                                                                                                          General (OIG)
                                                     Sacramento, CA 95814
                                                                                                                                                                                                                                          Report on the
                                                                                                                                                                                                                                          Implementation of
                                                                                                                                                                                                                                          SLIAG

                         From:                                                   t of Social                                  Selces
                                                 Attached are the Department of Social Services'
                                                                                                 (DSS) comments/suggestions to
                                                 the OIG report. Our overall concern with the report is the OIG'
                                                 understanding of the roles and responsibilities of DSS under the State
                                                 Legalization Impact Assistance Grant (SLIAG). We hope that
                                                                                                             these suggestions
                                                 will clarify the roles and responsibilities of DSS in administering and
                                                 managing the SLIAG program.

                                                 If you have any questions, please do not hesitate to contact Ana Lissa Muniz
                                                 of my staff at 4- 1568.




                                                                                             ch1e
                                                 Immigration and Resettlement

                                                     Managemen t Bureau

                               omments Suggest


  lifornia     Organizational Structure
       We recommend the following language on the              second
       paragraph.
       In Cali forn ia, th e State Departm en t 0 f Soc ial       Serv ic es
       (SDSS), the State Department of Mental Health (SDMH), and
       th e State Departmen t 0 f Housing and Commun it Y Dev el opmen t
       (SDHCD), are responsible for some public assistance
       progr ams; th e     State Departmen t 0 f Heal th     Serv ic es (SDHS) is
       responsible for all public health and other public
       assistance programs; and the State Department of Education
       (SDOE) is respon sib le for ed uca          tion. Eac h agenc y will
       request funds from the Grantee Agency, which is the SDSS.
Sta te De partmen t   of   Soc ial   Se rv ic es
       We suggest the following language for the third paragraph.

      The State Department of Social Services (SDSS) is
      responsible for administering (Grantee Agency) and
      complying with SLIAG functions at the State         The
      SDSS, headed by a director, has eight divisions. The State
                                                                level.
      Legalization Impact Assistance Grant (SLIAG) functions will
      reside in the Welfare Program Division. Within this
      division, the Immigration and Resettlement Management
      Bureau has been assigned the dual responsibility of
      functioning as the Grantee Agency, which includes
      coordinating data collection, preparing reports to the
      Federal and State Government, disseminating information to
      other Immigration Reform and Control Act (IRCA)/SLIAG

       Departments; and program administration/management of
      related public assistance services to eligible               legalized
       aliens.
Public Ass istance

      The programs mentioned in the sixth paragraph do not
      incl ud e all th e ae tiv it ies/serv ice s funded under public
      assistance. In     addition, the adoption program and the
      child abuse stud ie s are not funded or a pprov ed ac t i vi ties
      in the SLIAG Federal Application.





                                     C-­

- : :.   ; : -:: ::!,;.   ~~~~~         p.
                                       :;:.   :.- ,:-     ::         ..\'   :"'..            ...   :;: . ::: :. '::        ::. :",'::
                                                                                                                                  . ,...'-   .. .. _   -,- ,,;' ,._     , -_--   ;, ' .   .:.._ :".   -,-_ ", '..- . . :;:::-- ::;.:':::""- ,,'                ';/   ~~~
                                  i.                           ..E                  i::i.'                            :J                                                                                                                          2U.il:.,..




  I.'




                                        Drawdown of Funds                                              f!
                                                                                                                           Balances
                                                        The third paragraph on the drawdown process is not

                                                        accurately described. The attached flow chart clearly
                                                        illlustrates the drawdown process                 The                                                         in California.
                                                        following is a brief statement on the drawdown process:
                                                        The SDSS is responsible for the Grant Management activities

                                                        which include the drawdown of Federal funds.

                                                        The SDSS developed and executed a Memorandum of

                                                        Understanding with each Department to ensure the timely

                                                        drawdown of IRCA/SLIAG Federal funds and to delineate each

                                                        others ' roles and responsibilities.
                                        Good Pra ctices
                                                        The statement on number three does not include the

                                                        SDSS' role and responsib      as a Grantee Agency. (For                              lity
                                                        additional comments, refer to our second paragraph on
                                                        Page 1.




                                                                                                                           C-7

":'":'' ::'':_ - -   \:' -;:-    -""      :"''- , ..."   : ' ;';;'- ,:;:.
                                                                        L'. '''-
                                                                                     .-:. ' ::., '' '
                                                                                                          f:.
                                                                                                                     . , ~~~
                                                                                                                    :..   ,,:     --'''''   ,"   '';''",. '
                                                                                                                                                              : :4
                                                                                                                                                                     :' '   :-   , , .':- : : ,; .- : --: :   ~~~
                                                                                                                                                                                                               -,.                                 :-:€     :; ',. '\    ~.-
                                                                                                                                                                                                                                                                         j-          ...    ;. ;;:.-.
                                                                                                                                                                                                                                                                                                 ..            / _
                                                                                                                                                                                                                                                                                                        :.::.';.i":::
                                                                                                                                                                                                                                                                                                                        ,,,\/':.;, ..-

 SLZ;;                                        D ra. wdo(.'                                                                                   Ior' ..                 F hi, ;:k                                1 C
                                                                                                                                                                                                                                                                               71:' ,              I':./


                                              1) HS/t)                                M
                                                                                                                                                                                                                      i.\- /lu'
                                                                                                                                                                                                                                          4/5                D f"                DITt!.


                         :rr.          !"'R               A-                         .) 'RA-                                                                                                                                                                  RA - SEND 'R
                                'T      'D                   e" N60 o
                                                                                                                                                                                                                     Z;;

                                                                                                                                                                                                                           , ib                               'E'I  C), lJIJ
                                   F "n+lp.c
                                j:cL!6 u.r= ,Jt:EL
                                                              "JA.'- "'                                                                                                                                                    ,I                          TH     !F.. "D.A 'I -eEfo
                                                                                                                                                                                                                                       UJD.s A A.€ IJ




                                                                                                                                                              'DS5
                                                                                                                                            ?R€MRf AAD                                     COH&/


                                                                                                                                                              ft- 'D, t)e e1)
                                                                                                                                                          Ue51" fte.                               M.1mtX
                                                                                                                                             'D.. 9M'-n4

                                                                                                                                                                                                                                                                           c: o,                            of
                                                                                                                                                                                                                                                1):$
                                                                                                                                                                                                                                                   f.A 1" 510
                                                                                                                                                                                                                                                                                           L(JPI
                                                                                                                                                                                                                                                                                                         t-€MO
                                                                                                                                                                                                                                                            O'TI     C: ,Oi1H..                   ':o              f'.. A,.Jl
                                                                                                                                                                                                                                                                                                                        ",61 ;
                                                                                                                                                                                                                                                          LJS                   i:1\ fJj.          ' I f"..
                                                                                                                                                                                                                                                                   ,jD         NO.                  t. IoCi :Jf





                                                     -:an k                        6(:                          ICA
                                                         . 'K€CEIU5 


                                                                        QU=.$1"                                                 MI"iS
                                                               'REGluES,                      TD         11 F

                                                         . 'T::                    E'0E.                VrotJ 1t,           AfD
                                                                  h6TIF/t3 'iHE :5
                                                                 -:f:.::FoSuR.:P.
                                                                                                                                r::                                                                                         .5"T'T              IPEPS!)CEPS O                               f.1


                                                                                                                                                                                                                              . II 
           t.1C         5 tS                      ?JJ
                                                                                                                                                                                                                                 t'P r,....-                                       I. -.




                                                              (€DtW                                        veR1J/               8Jr
                                                                     'Kcc.ue$ fU

                                                                         'Rt O€S1" A-D

                                                                       WIe.                    MONiES


                                                                           rsA+K                 OF         AI/BJ




                                                                                                                                                                                         .5ff                 U:,mLlfS WIC.
                                                                                                                                                                                                . 11't ':A                                     eDl
                                                                                                                                                                                                     -r                    ATlc)J,
                                                                                                                                                                                                      "RECUE' .
                                . ..

Sta ."   Caia                                                        Department of Health Seices


Memorandum
     : Richarcf '    pstein .                          Dae : July 5, 1989
         Special Assistant to the Secretary

         Health and Welfare Agency                     Subject:   Comments on Dra
         1600 Ninth Street                                        DHHS Inspector

                                                                  General Report on

                                                                  the SLIAG Program

                                                                  In California Dated

                                                                  May 1989
  m : Peter Abbott,
      County Health

      8/523

         The following responses are provided on the Draft DHHS Inspector
         General (IG) report entitled "Implementation of the State
         Legalization Assistance Grants under the Immigration Reform and
         Control Act of 1986 - State of California"


             DHHS        Finding (Pg. 8):

             Pulic health assistance programs need defini ti ve quidelines

             from the state on how to identify eligible legalized            aliens.
         Response:
             In the                                          and
                      year that has elapsed between the IG visit      the
             publication of their report, California has made significant
             strides  in establishing financial reporting systems
             responsive to federal requirements. All local government
             agencies claiming SLIAG reimbursement for public health and
             public health assistance costs associated with providing
             services to eligible ' legalized aliens (ELA' s) based
             documentation or statistically valid sampling have been
             provided with the Family Support Administration'      (FSA)
             guidance on the documentation of ELAs contained in Module
             of  the FSA publication entitled "State Legalization Impact
             Assistance Grants - Establ ishing and Reporting Actual Costs"
             (DHHS SLIAG manual). Additional guidance was promulgated
             a program by program basis (for example, see attached "MISP"
             Counties LIMA Guidelines - Fiscal Year 1988-89"
             ;nique situations.

                                                                     meet    to
             All agencies have been advised to maintain photocopies
             the cited information   When this is not possible, they have
             been advised to annotate their files that such documentation
             was in fact viewed in each instance and to record
             alien                                                    INS
                    registration number from the documentation that was
                                                                             the
             viewed.




                                         C..9
                                    ~~~




       We are aware   that this documentation requirement may
       in  an   	  er.statement

       ELA I S or Ci&courage ELA 	
                                           associated with serving
                                         ilizing available services
                                          m u

                                                                     resul t


       because of the uncertainties and confusion surrounding the
        public charge" issue. However, we see no other option given
       the DHH requirement.
       DHHS IG finding (Pg. 13):

       state  quideline. are needed to determine allowable costs
       public health assistance and education programs.

       Response:
       Guidance on allowable SLIAG costs contained in Modules 5 and
          of the DHHS SLIAG Manual has been made available to local
       government public health assistance programs          seeking
                                                              SLIAG
       reimbursement. As indicated        above   , additional guidance was
       promulgated on a program by program basis        (see attachment).
We also note that the report states on page 7 that the Department
of Health
sheets. This
            Services documents administrative            costs using
                                                             time
                was the case during State            fiscal year
Beginning 7/1/88 the Department began directly allocating
                                                         1987-88.
                                                                       staff
resources to SLIAG administration functions, allowing associated
personnel  services and operation expense costs to             be
                                                         directly
captured' by its automated accounting system. We expect to use
this system throughout the remainder of the SLIAG grant.
We appreciate the opportunity to comment on the draft report.
you have any questions, please call Mike Rodrian at 5-1161.
Attachment
cc:	   Darrell Doty
       Audits Coordinator
       Accounting Section
        8/1160
.. ., ''''        .,,'"
                    ," .. ....                                                      :. -    :::.     :;. :::. ''"   ' .' " ' '   ::j. -::.    . . ..   ; . .. -'._   ...   :._   :.,:..:,..-.:::_   ..;.':
                                                                                                                                                                                                             ;io




                                                                                                                                                   EXHIBIT C


                                                                      MISP COUNTIES

                                                                     LIM GUIDELIl! 'rS
                                                               Fiscal Year 1988-89



These guidelines are for the State Departent of          Services                                                                Health
(DHS) Legalized Indigent Medical Assistance Proqram          LIMA
is the State' s program for reimbursing counties for unreimursed
                                                                                                                                             (LI).
heal th               care
               services paid for or provided to persons eligible
under Section 17000, Welfare and Institutions Code (WIC) and who
have  become leqalized residents under provisions of the Federal
                 and Control Act of 1986
Immigration Reform                                 (IRCA) . These
guidelines cover only LIM             for
                                  expendi tures               iod
July 1, 1988 through June 30, 1989. For additional information,
                                                                                                                                             the
please contact Gary Miller at (916) 445-0188.
 PURPOSE. ALLOWABLE USES OF LIMA FUDS
 LIMA funds, which are ;providedto the State through the federal
 governent'   State Legalization Impact Assistance Grant (SLIAG)
 proqram,                        are
                 intended to reimburse counties for actual
 unreimbursed costs of heal th care services provided to
 IRCA-legalized persons who are eligible for services under
 Section 1
                         i.OOO
                                      WIC.          SLIAG funds are subiect to these                                                   restrictions:
             o SLIAG funds may be used only for programs
                 which are generally available to the citizens of the State.
                                                                                                                                      or activities
                  Scope of                         services for IRCA                       leqalized persons must be
                 identical to services provided to other program recipients.
                 Unreimbursed costs are actual costs after all applicable
                 revenue and reimbursements have been subtracted. Claims
                 may include direct unreimbursed administrative costs and
                 eligibility costs.
                                                                                                                                                       costs
                                                                              for services if charge data is the
             o Counties must account for the differences between 


                  services                              charaes
                                      all or a portion of the LIMA Cost
                                             and



                 Report. Incomputinq
                 basis for
                            most instances provider charges exceed costs;
                 LIMA can only pa::t'         costs. Counties are required
                                                                for actual


                 to explain their method of ascertaining costs, in relation
                 to charges;   generally, a ratio is applied to charges to
                 determine costs. For further details, please see reporting
                 form instructions.

             o In order to                              be SLIAG reimbursable,
                 provided only to persons who meet all existing
                                                                                                                             services                  must be
                                                                                                                                                            program
                 requirements, including share of                                                  cost.
             o LIMA funds may be used           reimburse eligibility
               determination and administrative costs, as well as for
                                                                                           to
                 costs of providing health care services. (See next two
  ~ '   ..'.                ..                      . '                             ...




                                                                                          EXHIBIT C


 section              for more detailed eligibility               information).
o:
                                                                  .(4.   :t.
        1.ru. ::t1: . i .;:i v..   costs must       determinecl      \... C1     ordi:nce with
 allowable federal regulation ' set forth in 45 CFR Part
 and Part 402. Indirect Costs must be determined in
 accordance with A-87 guidelines as established by the
 Division of Local Governent and Fiscal                                        Affairs of the
 state Controller'                        Office.
o Administrative costs related directly to the medical care
 of  IRek legalized persons should be buil t into patient
 costs. LIMA administrative costs should include those costs
 that  are directly related to the administration of SLIAG
 Grant Fuds, i. e., planning, consulting, record keeping,
 data collection and cost report preparation.


 LI   funds cannot be used to reimburse costs of an abortion
 unless the abortion is required to save the mother'                                       s life.
o LIMA funds cannot be used to pay IRCA-legalization
  application fees ' or fees for the medical examination
  required for IRCA legalization.
o Costs reimbursed under these quidelines are for heal th
  services (including administrative costs, and eligibility
  determinations) provided between July
 June 30, 1989. The method      of accounting
                                                 1988 and                       1,
                                                                                used must
  consistent from year to year of claiming. 

 o Costs claimed                    shall meet applicable         federal
                                                                   reguIations
  pertaining to the                    implementation of section 204 of                      Pulic
  Law 99-603.



 SLIAG ELIGIBILITY REOUIREMENTS:


o Counties receiving SLIAG
  identifying and documenting the IRCA-legalized
                                                    funds   are responsible
                                                                     status
                                                                            for
  persons whose                     health expenses are claimed for                            LIMA
  reimbursement. The only                      certain proof that a                  person is
  IRCA legalized is                    the Lawful Temporary status                 card 1-688
     (green card.If the I-b88 is unavailable, the Employment
  Authorization card I-688A (red card) provides indication
  that  the person has applied for legalization and paid the
  application fee. However, a small percentage of persons
  receiving the I-688A card do not receive their lawful
  temporary resident status and the 1-688 card. Another
  indication that the person has applied for legalization is
  the . Immigration and Naturalization Service computer                                printed
  document verifying payment of fees required for                                  application
  for temporary resident status.
o Counties should retain copies                        of   documentation used
  establish eligibility.
                     ::.' ,.          ... :,;                   :;. :.,:.:   ,.. ..::..!::    :'            :.'.   ;;:         ;...   "-,,                  '::';''':';-.,            :;".:, .; ' ...!._ ;,;..;..;', :. . -' - " -''-'      ' -..-.. '   ...,.~.   :,, .
;;r:.   :::t:	                  :;c             2::-3,   /S;/                                      .-lJ2:                :i,                 J..-;;";:!.'                    i..:..                    ".t,                              :C.)'




                                                                                                                                                                                                                                            EXHIBIT C



                     o The effer:t:ive r\at	
                       individu
                               required fee. It  is or her application and - paid the
                                                                   filed'

                                                is important for providers to check the
                                                                                                   f legal status " :1:: tl be the


                               issue date and the expiration date of   any docuentation
                               provided to  ensure that the person who received services
                               did  so on or after July 1, 1988 and had IRCA legal status
                               on or before that date of service.
                 IRCA-LEGALIZED PERSONS                                                      AN CATEGORIES                                           OF HEALTH SERVICES ELIGIBLE
                 FOR LIM REIMBURSEMNT AR AS FOLLOWS:

                     o Unreimursed county                                                          costs of health care services reqularly
                               provided to IRCA-legalized persons eligible for serv. ces
                               under Section 17000 (WIC) in the county, (including MISP) .
                     o Unreimbursed county costs of providing non-pregnancy
                       related health care to IRCA legalized pregnant women who
                               only.
                       are Medi-Cal beneficiaries for pregnancy related services
                     o Unreimbursed county costs of providing non-emergency health
                               care to IRCA legalized AFDC linked persons, who are
                               Medi-Cal beneficiaries for emergency services                                                                                                                                            only.
                     o County administrative and eligibility costs associated with

                               providing healtn                                                    services 	                                                                IRCA-legalized persons
                               eligible under Section 17000 (WI C) .

                 DOCUNTING HEALTH CARE COSTS
                     payments are based on unreimbursed costs of services to
                 IRCA-eligible recipients of services under Section 17000 (WI C).
                 Counties will therefore want
 to document these costs by recording
                 he following:	
                     o Patient identifier-- name, county numer, Socia Security
                       numer (if any), etc. Please obtain patients' Social
                               Security numer   (SSN) whenever possible. These SSN'     may
                               be useful in the future for claiming unreimbursed costs.
                     o Date, location,unretmursed cost of the service provided.
                     o Method of verifying the patient. s IRCA status. Preferred
                       methods: photographic or xeroxed copy of both sides of
                       Form I-688 (temporary resident) or Form I-551 (resident
                       alien) or other document verifying the individual'
                               immigrant status, and/or notation in case or program files
                               showing the person'      Alien Registration Numer (I'A"
                               numer), the effective date, and expiration dates of the
                               documents, and date(s) the individual received services.
                               Not recommended: self-declaration of immigrant status.
.. J _
         :" . :';' '   -:;;,    ;;..
                           fJ'-7.
                                        ::.:::";,'   :,:.   ,,,";. j; :'
                                                                           l ,.
                                                                                  .:. , ':, ":- -: ";' '--
                                                                                                             - -:.-- n
                                                                                                                         ': . .:, . .._ -.,, :..: ':"- ; ." ;" ::;.:,.- .... .   ,   ..
                                                                                                                                                                                     ' , ':;-, -,". ; " , .:.:, , . .   '-,
                                                                                                                                                                                                                              r.,,
                                                                                                                                                                                                                                     ,'-;:,---"; ""-,._, .., . ..   ,-- ':.: " .-'..   ,..
                                                                                                                                                                                                                                                                                             O. -
                                                                                                                                                                                                                                                                                                    ,--   ' '-. ".,'J . 'n." - ,.,_. ~--- _.   -,---....__.   ,,­


                                                                                                                                                                                                                                                                                                                      EXHIBIT C




                                       Counties may document the nUmQ
                                       (visits,                            of
                                                inpatient days, and eligibility determinations) either
                                                                                                                                                                                                                                                IRCA-reimbursable uni



                                       by actual record or by use of a statistically valid sample. If
                                       the latter is used, the statistical sampling method must conform
                                       to federal    lines, and any revisions or
                                       Departent of Health
                                                    qui de                            modifications by
                                                            and Hum Services as indicated in
                                       "MODUL 13" , SLrG Guidelines, attached.    The Department should
                                       be 9i ven an explanation of the sampling technique         Audi t                                                                                                                                                                                             used.

                                       exce tions resul tina from use of a sam na method must be borne
                                       bv the countv.


                                       The costs of                                                   IRa-reimursable units may                                                                                                                 be documented either
                                       reporting actual costs/uni ts of services or by determining an
                                       average cost per unit of services. Costs may be computed based
                                       on the actual costs associated with specific LIMA patients or
                                       the  average cost of service in a program or acti vi ty. Average
                                       costs must provide a                             actual costs.
                                                              reasonable me&sure of
                                       Averaged costs should. not exceed the total
                                       associated with LIMA patients.

                                                                                                                                                                                                                                                                              cost of services
                                       In arriving at county unreimbursed LIMA costs, the county must
                                       reduce medical care costs by any revenues and re imbursements
                                       received by or on behalf of an IRCA legalized person, e.g.,
                                       Medi-Cal - reimbursements, Medicare, third party reimbursements,
                                       share of costs payments, fees, or other payments.

                                       LIMA ON AB8/MISP SCHEDULES

                                       LIMA funds paid to the county 
  the 1988-89 fiscal year must be
                                       reported both on MISP and AB 8 portions of the 1988/89 Estimated
                                       Actual  and Actual Financial Data Reports. For the 1988/89 Plan
                                       and Budget, if estimated LIMA costs and revenues/reimbursements
                                       are  known, these should also be included. LIMA costs claimed
                                       are shown as expenditures: LIMA payments received from the state
                                       and reimbursements from patients and third party payers are shown
                                       as revenue. Details about MISP and AB 8 budget schedules can be
                                       found in guidelines for the FY 1988-89 County Heal th Services
                                       Plan and Budget Update.

                                       APPLICATION FOR LIMA FUDS AND STANDARD AGREEMNT
                                       In order to receive LIMA fUnds, a county must enter into
                                       A9reement for 1988-89 LIM funds, and complete and
                                                                                                a LIMA
                                                                                           submit the
                                       appropriate cost report forms                                                                                                                                                to the                  Departent on                                                                            timely
                                       bas is .
                                       The LIMA  Agreement must be signed by the                                                                                                                                                                       chairperson,                                                    Board
                                       Supervisors, or designee.
:;, ::: :",
              j.L   ::J   jj;"e.:   /;;:i   ";"j2. l&:..:
                                                             :.;   /::-'-, :::. ::_
                                                                                      :'L ...
                                                                                                ;j,;   .-    ;:,    :.:..:.:   y:
                                                                                                                                 :0.'   L: '
                                                                                                                                               :.:;:
                                                                                                                                                       l ::), J,,
                                                                                                                                                                       ')
                                                                                                                                                                 ::': ...
                                                                                                                                                                         .'',;i,,
                                                                                                                                                                                 -;'::...., ,":,          , --..
                                                                                                                                                                                                    ",:;;,-,:..; j ":';_ "::
                                                                                                                                                                                                                                    .:..-t';,
                                                                                                                                                                                                                                                .:, :::. / ' ' ..




                                                                                                            KISP COt7IES
                     GENERAL INSTRUCTIONS POR COMPLETING                                                                                       TH LIMA                                             COST REPORT PORMS
                                                                                                       FISCAL                  YE 1988/:
                    The MISP /LIMA Cost Report is desiqned to claim
                    costs for the period July             rcu;h J
                                                                                                                                                         LI   unreimursed
                                                                                                                                                         e 30, 1989 on
                    quarterly basis. Please submi
                                                                                                                   1, 1988

                                                                                                                                               separate reports for each
                    quarter.
                                                      t
                               The quarterly reports are necessary to pay
                    to the county and are due to the County Health Service Branch
                                                                                                                                                               LI funds
                    indicated below:

                                    Quarter Endinq September 30, 1988                                                                                  -         Due                  March 15, 1989
                                    Quarter Endinq December 31, 1988                                                                                   -         Due                  March 15, 1989
                                    Quarter Endinq March 31, 1989                                                                                      -         Due                  May 15, 1989
                                    Quarter Endinq June 30, 1989                                                                                       -         Due                  August 15, 1989
                    This                                                Actual Final
                                             report form is also designed for use as your

                    State Fiscal Year Cost Re ort for the period July 1, 1988 through
                    June 30, 1989.                                    March 31. 1990
                    and is a cumulative report of costs previously reported in the
                                                                                This report is due no later than




                    quarterly reports and any addi tional costs not previously
                    reported. This report will be used to make a final settlement
                    LIMA funds. Please read the following instructions and the LIMA
                    guidelines prior to completing the                                                                                  form.
                    Section A -- Enter the name of the                                                                                  County.
                    Section B -- Please indicate the quarter being reported or if it is

                                                                   the  Actual Final State Fiscal Year Cost Report.
                                                                   Check the appropriate reporting period (s) . 

                    Section C --                                   This section provides                                                                 cost                          and utilization data.
                                                                   Please report                                       costs for services provided on dates
                                                                   within the reporting period. The following persons or
                                                                   categories of health services are eligible for LIMA
                                                                   reimbursements.
                                                                   o Unreimbursed costs of health care services regularly
                                                                        provided to                                     IRCA-legalized                                                                                           ligible for
                                                                        services under                                           Section 17000 (WIC) in
                                                                                                                                                                                             persons

                                                                                                                                                                                                                                 the county,
                                                                         (including MISP) 


                                                                   o Unreimbursed county costs of providing non- pregnancy
                                                                        related medical care                                                                to IRCA legalized pregnant
                                                                                                                                                                                                                                    preqnancy
                                                                        women, who are Medi-Cal beneficiaries for
                                                                        related services only.

                                                                   o Unreimbursed county costs of providing non-emergency
                                                                        health
                                                                             care to IRCA legalized AFDC linked persons,
                                                                                                                                                                                                                               for emergency
                                                                        who are Medi-Cal                                                       beneficiaries
                                                                        services only.
. - . ::: ::,;..;:, :./: - : :;:
                                   i..
                                          :\- ::,      .";-.j.
                                                    i;;,	             :i.'.!i:,
                                                               :/J.:"jJ'
                                                                                :-: ',,;).' ;-.,:::    ;\.'
                                                                                                              :' 1 ,
                                                                                                                       ) ,

                                                                                                                       ... :::" ,:' --:":::;:'   .:,-.::: .   ::'::_: ,: .' ' .:.::'':'   ' ....;'   : ':--       :.:, '"" -"' "':!. ' :. "'.' ;':-' :"),:,:'":.':,,; ..,=-. :..
                                                                                                                                                                                                                                                                                   'J,
                                                                                                                                                                                                                                                                                         :"","':'- . ':_ ::-,.' ;. .   ,--"        ",",:.,
                                                                                                                                                                                                                                                                                                                              --:o_.     .o:J..,
                                                                                                                                                                                                                                                                                                                                                   "".




                                         Colum 1 --                                                   Enter the total numer of Patient Days, Visits,                                                                                                                                                                                         and
                                                                                                      Section  17000/MISP Eligibility    tenuinj!Ji,=n!=                                                                                                                                                                                     for
                                                                                                      the period covered by the report.

                                         Colum 	2                                   --                If you are4,reporting
                                                                                                      to colum
                                                                                                                            costs ONLY (no charges) skip
                                                                                                                    otherwise, enter the charges per day
                                                                                                      and/or visit. Weighted average charges per unit
                                                                                                      service are acceptable. If used, please explain how
                                                                                                      the weighted average charges were determned.
                                         Colum 	                                                      If you completed colum    (charges are reported) you
                                                                                          . must enter            the necessary                     reduce
                                                                                                      charges to costs. Please explain how these ratio(s)
                                                                                                                                                                                                                             ratio in order to
                                                                                                      were determined.
                                         Colum 	4                                   -- If you completed colums 2 and 3, multiply them and
                                                                                                      enter 	the
                                                                                                   resul ts.             starting in this                                                                     If you are
                                                                                       colum with costs, it should be noted that weighted
                                                                                       average costs per unit of service is                                                                                                                                                          acceptable. If
                                                                                       weighte average costs are used, please explain how
                                                                                       the amount was determined.
                                                                    Note:	 Administrative costs related to direct medical care
                                                                                                      should be built into the cost amount in this colum.
                                                                                                      An  example of administrative costs for this colum
                                                                                                      would be hospital or clinic administration.

                                         Colum                                       --services)
                                                                                        If applicable,  multiply colum
                                                                                                 by colum                                                                                                     (costs per unit of
                                                                                                                                                                                                                                                                                                    (units

                                                                                                                                                                                                                                                                                                      service)
                                                                                                      and enter 	the results. Enter the costs for
                                                                                                      administration of LIMA in this                                                                                                                    colum.
                                                               Note:	 LIMA Administrative costs reported in this colum
                                                                                                      should include the costs of administering the LIMA
                                                    program and must not duplicate administrative
                                                    costs reported in colum
                                         Colum 6 -- Report all RENUS and REIMUREMNTS received
                                                                 CMP, third party or share of costs,
                                                    (Medi -Cal , 	
                                                    etc.             services, MISP eligibility
                                                    determination and LIMA administrative costs
                                                                                                                                                     for
                                                    claimed in Colum s.
                                         Colum 7 	 Subtract colum 6 from 5 and enter the results.

                                                                                                      This colum should                    unreimbursed
                                                      represent the

                                                                                                      county costs of providing medical care to persons

                                                                                                      legalized pursuant to the Immigration Reform and

                                                                                                      Control Act CIRCA) for: 1) indigents; 2) MISP

                                                                                                      eligibility determinations; 3) the unreimbursed

                                                                                                      County cost of LIMA administration.





                                                                                                                                                                                C-16

'i=!;.
         ''. ;:':';.
                         i..
                               :', ;,.. ---   ,,,,,
                                                        ::':L.:"'
                                                                    ~~~~   .J:,
                                                                                   ",-,;.-_.   :.,   ...:.
                                                                                                             ;.:r':
                                                                                                                      ,,"'_.,
                                                                                                                                4"'-
                                                                                                                                       "'--'
                                                                                                                                               o:"
                                                                                                                                                  -:_-,",,.
                                                                                                                                                              ;...":L_
                                                                                                                                                                         ....,- ,..
                                                                                                                                                                                      .I"-'




                       section D --                                 This section indicates   how the data disclosed
                                                                    Colum         1 are docuented.
                                                                                                Indicate if the data                                                                          are
                                                                    based on complete case specific records or    .:ed
                                                                    a valid statistical sample.

                       Section E -- Enter                                  for each category, the numer
                                                                    indigents served and indicate with a check mark
                                                                                                                                                                         of legalized
                                                                    it is an unduplicated or duplicated count.
                       Section F -- This section provides for the                                                                                 following:
                                                                    Line 1: The sumary of                                 the net costs previously
                                                                                   reported to the Departent, (enter a zero
                                                                                  for first                           quarter of the State Fiscal
                                                                                  Year) .
                                                                    Line 2: The current costs being reported     the
                                                                            Departent from colum 7.
                                                                    Line 3: The total costs reported to date for the
                                                                                   state fiscal year.
                       Section                        G -- The person responsible for preparing and                                                                                    submitting
                                                                    the  report must sign and date the report
                                                                    indicated.
                       bection                                      Only the Actual Final state Fiscal Year Cost Report
                                                                    must be signed and dated by thenot.
                                                      H --
                                                                                                    . County
                                                                                                        later
                                                                    AUditor/Controller. This report is due
                                                                    than March 31, 1990.
                       Section I --                                 Complete the questions in this. section and explain
                                                                    the methodology and assumptions used in completing
                                                                    this Cost Report. Completeness of this section is
                                                                    required for the approval of the cost report and
                                                                    disbursement of                    LIM funds. Therefore please be
                                                                    specific as possible in answering the questions
                                                                    this section.





                                                                                                              -l 7
  ~~~~~~~~~
       :.
  ;:.; ~~~~
,....
.....
...          ~~~~
       ;; ~~~~
       ....:
       .....
       ;;;;;    ~~~~~~
             .....
             ;;;;.;;;.
              ;;;;: ;;;;~~~~        ..............
                                   ..........
                              j'!. ;::;.
                   ....................
                   .""                   ;;:.    ."'.
                                                .....
                        ;;	.........................
                                          .. . .:;;:;;          ..... ..
                                                   .. . ! . . :;:     .....
                                                              . .......  . . ...... ...
                                                                   .	 .=..
                                                                        !.........  .....   !
                                                                                        . . ......
                                                                         . . ... ..... !.....        ===
                                                                                                   ....
                                                                                                   - . ;.
                                                                                       j.. . - . . ....
                                                                                          ------
                                                                                          -----          ==....
                                                                                                            ;;j!......
                                                                                                      == .....
                                                                                                        . . ;.
                                                                                                            ....   .... ..	
                                                                                                                        .....
                                                                                                                         ..... .....
                                                                                                                        ..........
                                                                                                            . . . . ! .......        .....,
                                                                                                                                      .....
                                                                                                                                  .. .....    ......
                                                                                                                                        . . . .....     .....
                                                                                                                                               . .. . . .--..
                                                                                                                      . . . .. . . . . . . . . ;. ;.    . . . .. .....
                                                                                                                                                         ;. ' j".. . . .. ...............................
                                                                                                                                                              !... .....
                                                                                                                                                                   ..,.. "."    ..........
                                                                                                                                                                                .....
                                                                                                                                                                         ..... .....  '. j'"  ...............
                                                                                                                                                                                             .....
                                                                                                                                                                                         !........ .....
                                                                                                                                                                                         j'.'.".'.".'.   .....
                                                                                                                                                                                                         ..... j'..........
                                                                                                                                                                                                   .......,.                ~~~~
                                                                                                                                                                                                                !. ' ;; ....,   . ;.
                                                                                                                                                                                                                               ~~~~~~
                                                                                                                                                                                                                                  ~~~~
                                                                                                                                                                            . . . . . .. .. . . . . . . . . . . . . . . . . . ::. .:-.:
                                                                                                                                                                                                                            ~~~       ~~~
                                                                                                                                                                                                                                  ........   ..
                                                                                                                                                                                                                                      .... ....
                                                                                                                                                                                                                                          ;;;;;
               . )   :..


..:e: -=8=e .c2ee =         =S8 ..=:- .2 .. ..... ..e:- D=aa:                  : 2 === e:_:c =c=e: =                = =s =e= =- .E        e. eaaee =sa ==   c:ce. _:=ea ..as. 8cae:=esce c===           ...a: ..=:8 -== =: =      = e&: === == === == c

I MISP COONIIES
I FISCAL YEAR 

                I A. N/\E OF Co./Nn
                       1988/89

                                                                                                                   (Rcv.     01'26/09)
I LEGALIZED INDIGENT MEDICAl ASSISTANCE (LIMA) COSTS 	
         REPOT                                                            ;;;;: ;e=. =ee e.      a..== =e... = a... ..=.s          ..... ...:. e.:e: a.:ee =e=... .....82.. ..a............ ..... ..a.e =..ae =e= ee e=: aa ...



                    ACTUAL UHRE IH8U1SED lIHA cons rOR TIlE QUARIER (NO I NG: SEP IEHnER 30 , 1988 . Due Hnrch 15 ,                                                 1989 


                    ACTUAL UNREIMBUSED LIMA COTS fOR TilE WARTER ENDING: OECEHDER 31,               Morch 15, 1969
                198 .
                    ACTUAL UNREIHBUSED LIMA COSTS 'OR TilE WARTER ENDING: HARCH 31, 1989 . Due Hay 15, 1989 

                    ACTUAL UNREIMBUSED liMA COSTS fOR THE WARTER ENDING: JUNE 30                Due August 15, 1989
       , 1969 .
                    fiNAL STATE f. Y. REPOT fOR THE PER 100: JUy " 1988 THROOGH JUNE 30 , 1989 . Due Much 31, 1990

                        ..=.....=................ .......... .......... as...                                              ..s.=t.............. ...Dt ..... 
                                                                             8==-:
  C. fiSCAL DATA I COUM                                                                                   COlU4N 6        COU". 7 I                                                                                        D. BASIS Of             'OT

                                       I COUMN 2 I COllJ 31 COlll 4 I COlUt 5
 .... .a.828=s..........=a......................... 8=........  ===. ..aaa ...                   a==..
                                                                               8..=...... ..C.. 8.8== ==Z=-
:....s................."..."


I.    lItt ELIGIBLE 1U8ER Of 	I CHARGES I RATIO                COSTS I TOTAL COONTY COSTS I TOTAL REVENUES I UlREUIiURSm
     SERVICES PROVIDED I PATlEIIT DAYS, I                            PER I COSTS                         I   PER I            Of PROVIDING I or REIMBURSEMENTS 	                                lItt                         (Check the
                                             VISITS,            DAYIVISIT I             TO        DAYS ,     VIS ITS, I         SERVICES TO                                                 COSTS CLAIMED                     .ppoprl.te box)
                   TO                                                                                                                                        I RECEIVED BY co.nuy
                                                                                                                                                                    COSTS)
I INDIGENTS LEGALIZED                                                            I CHARGES OR                                        I fOR COSTS REPOTED (NET COON"
                                                                                                                                         IRCA
I PURSUANT TO           IRCA I EliG. DETER. I                                                    I EliG. DETER. I lEGALIZED INDIGE..TS  I IN  COLUM   5 
                                     (COC. 5. 6)
                                                 or
'_:..8...= ..... ......................... ...e. ..:-.                                  ...:- aD:== _:C8. ===2.

                                                                                                                 II 3)1	
                                                                                                                        88:_:_==78..=8. =.... aa8.8 ..=                  .......a....s......            ........"...=Z .a=:= ==a:. ===:= ==-,

                                                                                                                                                                                                                                Stottltlcal slIPle
IIReA M/C BENEflCIARIESI                                                                         I (COL. Z
                                                                                                                                                                                                                                Case Specific

INO.EMERGENCY COSTS 	                                                                                                                                                                                                                             '.G'. ...1
                                                                                ..... ..... .G'.'. .... .'G.' .....

I"""". ..... 	
           HIC
       8ENEfiCIARIE	                                                                                                                                                                                                            Statistical S8llel
IIIICA                                                                                           I (COL. Z       II ))1 	
                                     I . . . . .. .                                                                                                                                                                     1-
             17000,MISP IIICA I                                                                                                                                                                                         I_      StatlsUc.1 s_plel
I SECT .                                                                                         I (COL. 2 X 3)1 (COL. 1 X 4) 	
                                                                                                                                                                                                                                C.5e Spec! fie

I INPATIENT SERVICES
                                                                  I'
                                                              I ; 	
I;;	                                                          j ..... ..... i..
                                                              ! ..... "..G
                                                                                                                                         (COL. 1 X 4)
                                                                          St.tlstlcel 511,e
ISECT. 17000,"15P IRCA 	                                                                         I (COL. Z X 3)
         EMEIlGENCY SERVICES 	                                                                                                                                                                                                  C.5e Specific
I.... ..... .....
                                                                                                                                                                         ..................0................ ..	 .. ..... ..... ...1

ISECT. 17000'"ISP IRCA I I
                         	 XXXXXXXXXXIxxxxxxxxxI I                                                                                       (COL. 1 X 4) 
                                                                 IXXXXXXIIXIIXIIXXXXIIKIIIIKXXI




                   i;;;;;;;i;;;;:;:;          i;;;;;;;; i;;;;;;;;;;;;;i..... ..... .......... . i.................. '	                                                                                                  i;;;;                        -;;;;I

          Of LIMA  IXXXXlOlOXXXlOxlxxxxxxxxxx I XXXXXXIIIIX I XIIIIIIICXXIIIIIIXX I 	                                                                                                                                   IXXXXXXXXXXXXlIlIxxxxxxxl
                .................... ..,'G ..... ..... ..... ...G. ..... ..... ..'G. ..... .'.'. ..... ..... ...G. ..... ..... .......... .......... ,.'G. .......... ..'G' ...1

               G""
I'.."'.'. .....
        TOT A l IIIXIOJOXXXJOIOXIXIIXXXXXIIII IIIIIXXXIIXXII IXIIIIXXIIIIXIIKIIIIIII                                                                  IxxlIlIlIXXIIXIIXXllllllllllllxxl
                                IIIIIJOJOIOJOXXXII I XICXXXXXIIX I XXXIIIIXIIIIII I XXXIIXXXXXIIIIXII I                                                                                                                 IXXXXXIIXllllxxXXlIlCxlIlIxxl
                   ......c........."....."............... CCDE:      .. .==a..==_:                                 c...                   .....=. ..... ..... ..=....88...... ........"."..."....2..                           ..:.. .a.-:....= ....
I E.
          IUBER Of IReA 170,"ISP ELIGIBLES SERVED:                                                                                            1=1 UNtJlICATED COT                         1=1 DUiCATED CON'

          NUBER Of IRCA.AfDC BENEfiCIARIES RECEIVING

                    NO. EMERGENCY SERVI CES	                                                                                                      I UNOtJLlCATED COUNT                        I DUL ICATED CONT

          NUBER OF IRCA.MEOI.CAL BENEfactARIES , PREGNANW
                    UDN RECEIVING NO.PREGNANCY SERVICES                                                                                           I UttJLBCATED COUN'                         I DULICATED COJNT
         . 828==    z... ........       ............... ..... aa... 2..:S ..-:- a.... ....- .e... ..... .E... ..... ..... ...ce K8e.. ..... ..... ..... ...:- ...ca 8C... ...== ===== -===: &=:== _=Z8
   ,.
   ,.... :.
     ;:' ;~~~~~~       ~~~~
                 ~~~ .....
                        ; . ; .....
          ..... ........................................
   '........    .....         ;;; . ; ....................
                      ..........          ; . .. .. ..... .. . .......
                                      ....................        .....     .....
                                                                  . .' .. ...............
                                                                            . . .. . .....
                                                                          ......                       .....
                                                                                               . . . ..==.......
                                                                                      .. . . ......    . . . .. ......
                                                                                                                  . . . . .....
                                                                                                                          . . . . . .....
                                                                                                                                 .. . . . .. .....     .....
                                                                                                                                             . . . . . ...      ... . . .
                                                                                                                                                                ..... .....
                                                                                                                                                                ..... .....    .....
                                                                                                                                                                       . . . . .....
                                                                                                                                                       . . . .. ..=............       .. . .. .. ... .. . .. .. .
                                                                                                                                                                                . .. ..... .......... ..... ..... .....
                                                                                                                                                                                                                      . . .....   .....            :.
                                                                                                                                                                                                                                   .. ... ..!.......
                                                                                                                                                                                                                          . . ... ...                     . ..
                                                                                                                                                                                                                                                       .. ...
                                                                                                                                                                                                                                               ! .. .......
                                                                                                                                                                                                                                              -'-                   .'
                                                                                                                                           .......... ..... ..... ..... c...:                                                                 . ..aa .   r.c= ..

   ..... .e          ....s ..... ..... ..... ...........c... ..... ...e. ......e.....eaa ..... .c.......... e...... .......... ..... .....


                                       00 00 ... :. . . 00 00 . 00 .. . : oo. . .. ..
                                                                                                                                      ---
                                                                                        . .. 00 . .. 00 . . . . . 00 . .. . . 00 . . 00 .. . .00' .0000 .00 .. . . 00 . . ..   .. . 00 .. .. oo.   .0000 . 00 00 .00"    . .... .00 .. .00 00 .           00 .00
                                                                                                                                                                                                                                                                         t

   I I. lorAl LIMA COSIS CLAIMED IN PREVIOOS 1900/09                                    QURIER(S)
                                                                                        
                  '

                                                                                                                                                                                                                    .... . .... i ..

   I J. lOlAl LIMA            COIS ClAl1U FOR THE PERIOD JUy                             I, 1988     IHROJGH      JU 30, 1989 10 DATE                                                    .......... .................... ...ass..:. ........

   ..... ....: s....                                                                            ......C:.8 :DS== :ZD== ...a. ..... ....-


   I    G.
 I hereby cert Ify that the net C08tl
                                                 reprted represent the actulII U1relnburled COlts Inc..red by ou cOlty In providing _Ical care to Indlgenta

            legal hed pusuant to 1..lgratlon Reforl an Control Act(lRCA) end thllt the cOlty has on file doUlentatlon to It.pot .uch unel""raed cost.. . .


                REPORI PREPARED IY                                                                          PHONE NUMER DAlE                        PREPARED
                                                                                                                            =. c.... ..... ..... .ess. ...s. .....
                                                                                                                                                                   ................................... ..sa. 

                     8S... ..... ..... .................... ............... .E:.. Z..=.

   I H. CE.TIFICATION IY COUNT' AUDITOR 
COTROLER                                  (REQUIRED ON FINAL RErORI ONLY)                                                                                     STAlE US ONL' '
                                                                                                                    above Is                                                                                                           DAlE -

        I hereby cert Ify that the Tota'                        Unelllrsed lIlI Cost ctal.ed                                       st.poted by IREVIEVED IT:
              Offlcla' Comty Records .nd t.                    ICcur.te to the bet of II                    knowledge. IAPPROVED                                                                                                       DAlE
                                                                                                                                                                                                                     8Y: 

                                                                                                                                                                    IPAYMENT AUTHOIZED .'1
                                                                                                                                                                                  AUTHORIZED:                               DAlE AUHOIZED
              SIGNAIUtE OF AUDITOR COTROllER DAlE CERTIfiED AMOI
              (or duly euthorhed rep.lentatlve 


               with cop of offici a'               authorization attached)
   .....c....                                                                                                                   ..... ..... ......ac..                                    ......... ......""...".......=8S8CZ.. ..... ...8


n I. lAaa MATERIAL (ATTACH ADDITIONAL PAGES TO ANSUER THE FOllOlING QueSTIONS)
                I. Oocunt Cellplaln) the .thod                      used     In dete..lnlng U1reillsed                      LIMA costa a. Indicated In Section D.                           Depnding        up the bo checked, plee.e ellplaln
                        the .ethod utlilled; co.lete ca.e specific data or valid statistical                                                lamle.
                        a. How wa. the laml e drawn?

                        b. Plea.e IUblt the lamle 
                     estlonnlre.
                        c. Does the S.-le take                 Into accout the.e factorl:

                                C I)   freqnc

                                (2) 'I.lng of lam'e
                                (3) Tren over tI­
                                (4) lamle II Ie In relation to service poplation
                        d. Are the 8ethod u.ed 'oglca' en result In a statlltlcallv                                           ve'ld .aMple?
                        e. "'at ..s the ..tiNted cost. In doing the lamle"

                                                                     to Idetify eligible. for when LIMA costl are cllilld.                                                         In acltlon, Indicate               the   t)p ..       location of the
                 2. Docunt (ellplaln) the ..thodlogy used
                        domentetlon          which Is available for audit purposes.

                 3. Please explain how chargel                   an COstl wer, deterMine.
                 4. If charges are          recbed to costl by using                     the ratio       lIethod (Colum 3); docunt                    how each retlo was deterMined.


                 5. If couty adlniatrative cOlt. of LIMA    are claill CColu. 5) which are not Included In patient COltl,                                                                     pleale e.plaln the             ty, 8IUtt, en .ethod of
                        deter.lnlng different aclnlltratlve cost                              cants.
                 6. If revenus and relllrletnts are not bosed on actual Individual reverues or                                                       rehnbUsellts for speel                  flc patlenta, please describe the Method used to
                        determine the 880ts                 of revenue        or   reimbusemets.
                 7. Oocunt cexpleln)                  how the     ruer of users (Reported! Un \!ect9oo U Nail deterlIOne.
   ~~~~~~~~
   ....
  ..... .....
  ........:-  ~~~~~
              . ;.~~~
              .....
              .....       ~~~~
                         .......
                     ;.....  ....................
                      ;;'=......
                           ;;;;.
                   ; ..........
         ~~~ ...............
         ~~~                     !...............
                                    ...............       ~~~~~~
                                                  ..... j!.....
                                    ....................
                                      .... ..... ....
                                 !. ...-....................
                                     ~~~                        ==.
                                                                 ..........
                                                                 .....   ~~~~~
                                                                        ..... .....
                                                                        !.........  .....
                                                                                    !... -.... -
                                                                                  !.... ;:.
                                                                                    ! . ..~~~
                                                                  ..... ...............
                                                           ..........                                ':.. !.......
                                                                                                           ..........
                                                                                                          !...=
                                                                                                           .....
                                                                                                       ;;j'."..
                                                                                           ....... ;.....
                                                                              ....................               .....  :.
                                                                                                                       ....................
                                                                                                                 . : .....
                                                                                                                ~~~       ;. .....
                                                                                                                         ..=......
                                                                                                          !................          !...
                                                                                                                             ;........... .....,.....
                                                                                                                                          .,..........
                                                                                                                                     !.....= ~~~       ....
                                                                                                                                     !...................
                                                                                                                                          ..... ..... .....
                                                                                                                                                ..........
                                                                                                                                                       .....  j""
                                                                                                                                                            '.....
                                                                                                                                                              !...
                                                                                                                                                        .........  ~~~~
                                                                                                                                                                   ..........
                                                                                                                                                               !.........
                                                                                                                                                              !........
                                                                                                                                                                    .... ......
                                                                                                                                                                   .....        .....
                                                                                                                                                                           .........
                                                                                                                                                                   ..........
                                                                                                                                                                         ......  .....
                                                                                                                                                                                 ....
                                                                                                                                                                          ..........
                                                                                                                                                                             .......    !!.
                                                                                                                                                                                         ....     ......
                                                                                                                                                                                          ~~~~~~~~~~~~
                                                                                                                                                                                  .... j.....
                                                                                                                                                                                            . . . .....
                                                                                                            ....................................................................................
                                                                                                                       ..........................................................                        ~~~
                                                                                                                                                                                                   ;;
 .....
                                                                                                                                                                                                  ;;;        -. " ...
                                                                                                                                                                                                         ;;;:;
                                                                                                                                                                                                        ..........
                                                                                                                                                                                                              ..... ....
                                                                                                                                                                                                                    ...
                                                                                                                                                                                                              ........
                                                                                                                                                                                                               ......-
                                                                                                                                                                                                         = .. ::::::
                                                                                                                                                            === d: -==== sea.:   =e... e ==    z= ===: = z =: %= =      =z == .8
  . .... sa. a: ..c.. a:... -== =2 ..... ..s.. 8C= == ae.=c e        sc:e= S D.. a: =.8 = : == = 8=== s ==a ..... ..aZ2. :8C8 ...=8 . c e= E .:ca 8 cce
            -----                                                                                                      I A. NAME OF     COUty
                                                                                                                                                                   -------
                      19BR/89
  I HISP COUNtiES
  I 'ISCAL YEAR 


  I lEGALIZED INDlf          Nr HEDICAl ASSISrANCE (lIHA) COStS REronr (Rev. 01/26/09) I
                                                                     ..... .22.. .e             ..... ..E.. ..... ... ea ..... ..... 


    I. RErotlNG rERIOD: (Check            tho Ippoprloto 'Ines)
                    ACtUAL UNRElH_SED LIMA COIS FOR THE GUARIER ENDING: SEPUMDER 30 , 19M . Due March IS, 1989
                    ACrUAl UNREIHIUSED lIHA COST;; 'OR TIle ClARnR ENDING: DECEHIER 31,        Duo Hirth 15, 1989
                                                                                                             190 .
                    ACtUAL UNRElM_SED LIMA COJS   FOR  "IE   GUAInER ENDING:  "ARCH :U, 1989 . Due "ay IS, 1989
                    ACtUAL UNREIH_SED LIMA cors fOR rIf GUAlnER ENDING: JUE 30               . Due August IS, 1989
                                                                                                      , 1989
                    FINAL STATE f. Y.   UPOT '01 TIl PERUD: JUy " 198 tHROUGH                        JUNE 30 , 1989 . Due March 31
   .... ....s...........k8........................s..                                        c. ..... 
                                       ................................... 8Z8:8                  ..se.........
                                                                                                                                          , 1990                                        1 D. 8AS IS OF
                                                                                                                                                                                                               REPOr

         LIMA ElIGI8lE                 U8ER OF        I CHARGES
                                                                         RATIO I          COStS I TOTAL COUNTY COSTS I               TOTAL REVENUES I UlREU8URS'E
      SERVICES PROVIDED I PATlEN' DAYS, I                  PER coStS                  I   PER I            OF PROVIDING            I or REIHBURSEMENtS I          LIMA I                       (Check the
                                                       DAYIYISn            ro      DAYS , VISITS,           SERVICES TO I                            COO"I COStS CLAIMED                        eppoprlet4. boA)
                    TO            I VISnS                                                                                            RECEIVED BY
                                                                                                                                                                   COSTS)
    IlIlGENfS LEGALIZED                                                CHARGES            OR                    IRCA               I 'OR COSTS REPOTED lUlU C(INTY
                        IRCA I         EliG. DETER.                               I EliG. DUER. llEGALIZED           INDIGENtS I IN COllRl 5                     (COl. S. 6)

  I PURSUANT TO
  I.........
   IRCA MlC 8ENEFICIARIESI
                                          or                         ............811. ..... ..... .......... ..... .......... ...a. ..... ........-......................... a-


                                                                                      (COL. Z X 3)
                                     .J.                                               - Stetl,tlc,- ,               S8I1.

   lI' EMERGENCY cosrs 
                                                                                                                                                                  - Cn. Spec:
                                                                                                   .... ..... ..... ..... .00.. ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... .....
  I.... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... ..... .....                                                                                                            Stetlstlcel SlIle
  IIICA MlC 8ENEFICIAIIESI
                                                       I (COL. 2 X 3)1
   lI PREG           RELATED COSTS I                                                                                                                                                             Cese Spec. ':Ie

C) .... ..... ..... ..... ...                                                                                           I X 4)                                                                     ::I                  :8Il.
                             ::CA I ,
                                                                                                                                                                                        I =

      :;T                                                                         I (COL. 2 X 3)      1 (COL.­
  I;;;; :.                        i" .... ..... ."'                  i"""'" i .                                               ;.. i".                                                            Ces. Speel fie
  I (ITPATlEN' SERVICES I 

  I.... ..... ..... ..... ..... 





                                                                                                                (COL. 1      .4)                                                        IICICXXXXXXXXXXXXXXXXIC
   ISECr. 170oo/"ISP IRCA I IXJOXXlOxxlJOXXXXXJOI I

                                                                                                                                                                                        I XXXXXXXXX
                                                                                                                                                                                                         XIOIO XJOXIO
             AD" I N I S TIA TI
              (I IxxJOXJJOXIOX I                          XIOIO XIOXX IIOXXXIOIOIIOIOIlIOXXXXXX I
                   ICXXXX I       Ix                   XXXXXXXXXIII XXXX XIOIO I XXXX     XXXXX XIOIII                                                                                  IIOJOXXXXX XIOXX XIOJOXJO
   lau"Of II MA

                                  i::: ::i:::::         i::::::::i::::::::j""""""."               ...... i'" ................ i"'."'" .....                                             i:::::

                                                             ..... ..c.. ..ac: :..=8 8eaa...... 

   I"" .....e......................................... .....
         NUBER OF IReA 170,"ISP ELIGI8LES SERVED:                                                                   1:1 UIUCATED muT                          1:1 IIICATED C(INT

         NUER OF         IRCA'AFDC IENEFICIARIES RECEIVING

                    NO- EHERGENCY SERVI CES                                                                         C:I UNtIliCATED CONT                      1:1 DULICATED COUNT


         NUBER OF IRCA'MEDI'CAlIEMEFICIARIES,                PREGNAM'

                                                                                                                                                                                    COUNT

                    UDN RECEIVING NO.PREGNANCY SERVICES                                                             i== UNLICATED COr                         1:1 IIICATED
  .....
    ;:. .....       ::;;;;
              .....;;;.;
        ; :;:.............     ;=
                     . ..... ; ...           ....; ...      .. .. ... . . .
                                ;;; ... ..........................
                                                   . .. ... .. . ;;;:;;
                                         ;;.....................         ... ... ......
                                                                 .. .. .......    . .. .....
                                                                                        ... .... ......
                                                                                                   .. .. . .....  . .,...
                                                                                                           . . ..:;;               . . ;;;:;
                                                                                                                    .... .. .;. ........     . . ..;:;=
                                                                                                                                       . . . ..:.
                                                                                                                                             .....  . ....
                                                                                                                                                   .....           ...
                                                                                                                                                      ... . ....;::;:=
                                                                                                                                                                 ......    ;;;:;
                                                                                                                                                                            . . .. .;:;=
                                                                                                                                                                           .....    ..........
                                                                                                                                                                   .. ... ...........         .. .... ..
                                                                                                                                                                                     . .. ..;;=
                                                                                                                                                                                              .....   . ..,...
                                                                                                                                                                                            ............          .. .. .
                                                                                                                                                                                                         ..........              ....
                                                                                                                                                                                                                                  .. .. ...
                                                                                                                                                                                                                               . ;;::
                                                                                                                                                                                                                      .. .. .. .....

                                                                                                                                                                                                         .. ... ..........               ;;;;;-
                                                                                                                                                                                                                                        ......  ::;
                                                                                                                                                                                                                                               .....
                                                                                                                                                                                                                                            .. ...
                                                                                                                                                                                                                                               .....    ....;.:;:-
                                                                                                                                                                                                                                                   .. .::;-
                                                                                                                                                                                                                                                       ..........
                                                                                                                                                                                                                               ............................:-
                                                                                                                                                                                                                                          .."*                 .... ;......     ...
                                                                                                                                                                                                                                                                                 ;;;
                                                                                                                                                                                                                                                                               ........
                                                                                                                                                                                                                                                                       . . . . . . . ':'                ..
                                                                                                                                                                                                                                                                                                        ..
                                                                                                                                                                                                                                                                                             .. .. .. ....
                                                                                                                                                                                                                                                                                 . . . \. .- ........
                                                                                                                                                                                                                                                                       .:.. . .--.:
                                                                                                                                                       .......... ee... ..... ..... ..... as=.. ..... ..... ..... ..... 8SS.. 2.=                                               c..e ::
 as...      .
  . ancw. es.        ..... ..... ..... ..... ..... ...sa ..... a.a=                             :.'.8 .....            ss 8S   t c: e e:ee 8
       SUHRY OF COSTS

  1 ,. 

  I.... ..... ...,. ..... ..... 

                                                                                                                                                                                                                                                                                          . ..... ...1
  , 1. TOTAL LIHA COSTS CLAIMED IN PREVIOUS                                      1988/89        OURTER(S)


                                                                                                                                                                                                                                                      ..... i ..
  1-. .. . .. .. 


  I J. TOTAL 
        UM aJn               CLAIMED fOR 'HE     Pfllm JUy " 1988 THROUH JUE 10                                               , 1989 TO DATE
     ;:S ;=                                   : ;8 ;;:8:;;8 :::;:8       ;:;;;:::;8 ;	                                                                                                          :: 8            ;;8 ;:8                                                                  ; :S8.= 8..

           Icgel hed pusuant to 1..lsratlon                                 aefonl en Control Act(lRCA) end thet the                                     cCKty has on fHe dounentatfon to I                                       pot luch UWelnbrled costl. .
               REPORT PREPARED BY                                                                                        PHON NUHER DA TE PREPARED
    ..8S ...82 ................................... ..... 88..........:..28::2                                                -=.....28:..... ..... ..... ..... 

                          COUNTY AUDITOR CONTROLER (REQUIRED ON                                                        FINAL REPORT ONLY)                                                                                       STATE US ONLY

  I H. CERTI FICAT ION .Y 

           I hereby certify thet the Total                             UneldJrsed U.. Cost Clallled ebove I s I                       by                                                 IREVIE"ED .Y:
                                                                                                                                                                                                                                                                       ATE
                                                                                                         t of     rt
                                                                                                                                                                                                                                                                      DAlE
           Off Ielal CCKty Recorc1 and II eccurate to the bes                                                            knowl Ported
                                                                                                                               edge.                                                     IAPPROVED .Y:



           SIGNATURE OF AUDITOR COTROLLER	DATE CERTIFIED 'PAYMENT AUTHOIZED .Y:
                    authorized repelentatlve              AMOT AUTHORIZED:                                                                                                                                                                               DATE AUTHctlZED
             with cop of official
           (or duly authorllatlon atteched)                                                              ..... a=C.8 _.=as          c.=......                                                                            ............... .......... Z&8=a a:c.:: 2.......



'( I.    BACKUP MTERIAL (ATJACI ADDITIONAl PAGES TO AHS                                              R THE FOlLOIING QUESTIONS)


              1. Docllt (explain) the _thod used                                     In dete..lnlng mreillursed LIMA coste al Indlceted In Section D.                                                               Depnding                     the bo checked, pleose explain
                        the Method uti I lied: co.lete cese                                                   Itetlstlcal I
                                                                                           lpeclflc dete or vllid             Ie.
                       a. How WIS the 1..1. dra..?

                       b. Pleese s   lt the 1..1. queltlonnlre.

                       c. Does the SUMI. tet. Into         these fectors:     accout
                                 (1) F     rl!nc
                                 (2) TI.lng of sMfI.
                                             tllI
                                 (J) Tren over
                                             In relation to service
                                 (4) leml. II Ie                                                          popletlon
                        d. Are the Method used loglcel and result In e stetisticlily velld slRple?

                        e. "'et wes the esth.ted cost I In doing the s  Ie?

               2. Docunt (expl.ln) the IIthodiogy used                                         to Idetify eligibles                     forwhOlUM coati ere clellned.                                   In acUltlon, Indicate the                        typ en locetlon of the
                        dounentetlon which II aVlnebie for 8Idlt purposes.

               3. Pleese expleln how chergel end costs were deter.lne.


               4. If cherges are                 redued to costl by using                        the retlo Method (Colum 3): doC:lIt how each retlo wes deter.l.-d.

               5. If couty edlllniitretive                          COltl of LIMA are claill (Colu. 5) which are not Included In patient cOltl,                                                                        pleale explain the typ, 8IWlt, and                                   .ethod of
                        deter.lnlng different 8dlnlstratlve cost                                       compots.
               6. If revenul end                  ralllrs_ntl are not based on ectuII Indlvlduel reveruel or rehllbulelltl for lpecl flc patlentl, pleese describe the lIethod used to
                        deter.lne the emotl of                         revenue or           reimbusemets.
               7. Documt (explain) how                           the     nuer of userl (Reported 9n $                                 gon          we. deter.One.
. .                   ;;'	                                     :;.                            y).



                                                    MISP CO

      " _II   GBNER           INSTRUCTIONS FO    COMPLETING      d:: . LI'ioL SUPPLEMENTAL DATA FORM
                                                  FISCAL YEAR 1988-89

                  Fill in county name.

                  Check appropriate reporting period                 (s) .
                  Section A. This portion of the LIMA Supplemental Data Form
                  provides addi tional information on those services and costs
                                Section C, lines 5, 6, and 7 of the LI Costs
                  included on
                  Report (Section      17000/MISP               LI
                                                          Inpatient Services,
                  Outpatient s	 ervices, and Emergency Services
                  The intent of this table is to separate outrespectiv
                                                                   those LIM
                  services and unreimbursed costs provided by county facilities
                  and staff from those provided by non county facilities and
                  staff. (Colum
                  costs"
                          Note that the requested data is for " unreimbursed
                                7             from the LIMA Costs Report).
              Colum 1             Enter the   numer of LIMA days or   visi tsprovided by
                                  county facilities and staff to IRCA legalized residents
                                  on the     inpatient, outpatient and emergency services
                                  lines as appropriate.

              Colum 	             Enter the unreimbursed cost per unit of service on each
                                  line  as appropriate. NOTE that this can be . calculated
                                  by dividing	 Colum 3 by Colum 1            for each line.
              Colum 	             Enter the total of unreimbursed costs incurred by county
                                  facili tiesand staff for each type of service.
              Colum'         s 4, 5, and 6

                                  Enter comparable data for LIMA services and costs
                                  incurred by non county facilities and staff. Attach
                                     narrative description of how these costs were
                                  identified and calculated.


                                 Enter totals for all colums. Please ensure that the

                                 total unreimbursed costs incurred by county and non
                                 county    providers sums to the total of         colum 7, lines
                                  6, and   7 of the LIM Costs Report.

                 Section B

                 This. portion of the LIMA Supplemental Data Form     designed
                 to provide additional data on outpatient obstetrical services
                                                                                     is
                 provided to IRCA legalized residents. The structure of the
                  form recoqnizes that many IRCA residents will be covered
                 Medi-Cal for at least a portion of their prenatal and post
                 partum care. Please distinquish between those individuals
                 and costs w	 hose            entire pregnancy was partially covered by
                          .'   :'   ' - ' .. .   ~~~                    ;:;           ;;   . . :"' :'               ::'               j;':._    ~~~~~
                                                       i :':::Zi, ,":         ;:;i'                     3.   .-i'         :L.   2:.                         l'   :.i   d:'   :L, ::i'   L:X



(.c' '





                  Medi-Cal and
                         the county. Note also that we are a.. 'd. ng for qrossfunded
                                  the county, and those who were entirely
                  by                                                             cost
                  i:':"-:ormati          -. as well as r anues from di'-\:cll cind other
                  sources in this portion.


          Colum                Enter the numer of pregnant women falling into                                                                                          each
                               category for the reporting period.

          Colum 2
             Is the             numer of services or encounters                                                                       provided?

          Colum                Is the qross cost of the services provided during the

                               reporting period?

          Colum                Is this total gross cost of services provided?

          Colum 5
             Is this fiqure the amount
                               received (billed)?

                                                                       payments
                                                               Medi -Cal


          Colum                Is the amount of other revenues
                               payments, other
                                                                (e. g.  patient

                                                         ) received or billed                third parties
                               indicated?
          Colum 7
             Is  this figure the unreimbursed cost charge to
                               for the reporting period?
                                                                                                                                                                       LIM
.....
......
......
~~~~  .....
       .........
        ..............
..... ~~~~
      .....
   .........
     ;;;;.. . ;;;;;
          ;.; ......
               ;.....  .....
                      .....
                       .....
                 ....;;;;;.
                       .....
                       ......  ......
                              ....
                               ...
                               .....
                        ;; ........
                              ...        ....
                                           :. .....
                                    .' .....        .....
                                                    .....
                                                     .....
                                              .....~~~~~~~
                                        ..........  .......
                                                    .....
                              .........................
                                ......
             .......... ... . ..........
       ;.'.".."""""'                                      . ...
                                                          .....
                                                           .....  .....
                                                                   :.   ...... .....
                                                           .....~~~~~~~~~~
                                                    ::: .....     .....:..
                                         ..... .......................
                                                     .....
                                                      ~~~                           ~~~~~
                                                                                      ............
                                                                                             ......
                                                                            . .................
                                                                           ...........
                                                                        --..........
                                                                                 ~~~   ....;......
                                                                                             .......    .....- !,...
                                                                                .... ..... ..... ..... ;:...
                                                                                                     ....
                                                                                                      !!.......
                                                                                                           ..........
                                                                                               .... ...........       .....
                                                                                                                .... .....   ...
                                                                                                                              ....
                                                                                                                             .....
                                                                                                                        .... .....      .. .. ...
                                                                                                               ..... ..... ..... ..... .....
                                                                                                                                        -....
                                                                                                                               ....... .....
                                                                                                                     ...........
                                                                                                                       ~~~~                    ....
                                                                                                                                              ...
                                                                                                                                        ",.: ....... ..
                                                                                                                                              .....
                                                                                                                                                 ~~~~   .... .....
                                                                                                                                                      .....
                                                                                                                                                  .. .....
                                                                                                                                              .....
                                                                                                                                               .~~~         ....
                                                                                                                                                             ..........
                                                                                                                                                            ...
                                                                                                                                                       ....~~~~~~~~~~
                                                                                                                                                            .....
                                                                                                                                                      .""'....                          ....
                                                                                                                                                                          ....................
                                                                                                                                                                         .....
                                                                                                                                                                         ..... .....
                                                                                                                                                                                 ~~~ ....
                                                                                                                                                                                .....  ....
                                                                                                                                                                               ..........
                                                                                                                                                      ...............-..............
                                                                                                                                                                                 ~~~    :... .....
                                                                                                                                                                 . ,.... ..................... :;;;... .. . .. .. -
                                                                                                                                                                                                   ..... .....
                                                                                                                                                                                                    ............
                                                                                                                                                                                                  .....
                                                                                                                                                                                                     ~~~  ....... . .-.....
                                                                                                                                                                                                            . .. ...
                                                                                                                                                                                                                 .'
                                                                                                          I' ''rIJ"
                                                                                                        -"-------
                                                                                                       ... U.'.....
                                                                                                                                                                                                                              1 '1; 'l f_



                                                                                            COUNn                                                                                                                                            l;:
 ..... R e... . 28. ...      .....e.... ..... ..... 8ca.. ..B..          cc:cc .ess. .c=         . .e:a: e ===- ===== =CQ.. .a... ..... ..... ...ae ...ew       ..s...e... ..... ..... .............c- ae::- as:=s 

 REPOTING PERIOD:


        JUlY', '988      TlIROOH SEPTEM8EI 30,          19.                              JANUARY I, 1909 TlIRWGH MACH :11. 1989.

        OCTOBR '. 1988 TlIROOGH DECEMBn 31, 1981                                        APR IL I, 1909 "IROUGH JUN 30 , 1989

 ..... .....m..............                                                    -:... ..: =2 =a=a: ..:.. ..... cc... ..... ..... ..... ..... .....                                                         .. ..=:s c:ca...

        UrnOtLZDoo/"ISP         ONLY




CATEGORY                          I. .... ....
                                         DAYS/VISnS                 UNElMaJRSED                       'OfAl                                             UNREIMlSED                    TOTAL
                                                                                                                     II DAYS/VISnS
                                                                       COST PEl                       COTS
                                                                                        IUNREINURSED ....D      II                                         COST PER UNREltlSED COSTS
                                                                                                           ..... ...... ..... .... ..... ..... ..... ..... ..... ....




                                                                                                                                                I...                      1... . 	                                                          . f'
MPATIENT 1.....
         	 ..... ..... . .. I. ... .. ... .. . .. .. .. I. . ... .. . .. .. . .. .. . 11.. . .. ..
                                                             1 , II                                                                             1.

                                  1' .... ..... ..... ... 	                                                          11" .

                                  I"......."'... ... . ............... "	               1'. ..... ..... ..... ' 11" .......... ,."'
                                1'....'....'.......

................................................................. 8S... e8=.. cae.. 	                                                           ......c................................

I. 	   aJTPATlENT PRENATAl AND POT PAIT'" CARE ONLY
                                                                                                                                                                                                                                              r.­
                                                                        .........0............... .......... ...... -.0. ..... ..... ..... ..... ..... ..... ..... 

                                                                                                                                                                                                  I ...

                                  1...                       1..                        1... 	                                                                            1..
PAITl' CtERED        IY",C

AND PARtlY 1700,"ISP



                                  1'.... ..... ..... .. . 1' ..... ..... . .... . . 1" . .. .. ... .. .              1..' . .... ... .. ... . ' 1.. .. .                    .................. i 

                                  1. ..... ....              1...... -......... ..      1........ ..                 1................ .. 1......... ..... .... 

                                                                                                                                                                .1.......... ..... ... . ......... 

             TOTALS I
."..................8......"......"............... ............ ....................                                                           ............................................. .c... 
                 D..=.

                                                                                                                                                                                                                                              I:;
        lUPT1NO NARRATIVE/METHOOGY	
                                                                                                                                                                         e.....                                                             -f
       Delcrlbe how services        en Ulellnbursed COlts of nocouty feeilities en steff were                                  Indtlfled       8n c:lculeted.
       Describe how outpatient prentet ..                 pot pert.. cere         ..s   IdenUUed IId leper8ted betwee "edt'Cet                         8nd Section !l000        en perU., covered.
PIEPAIED IY:                                         TITLEs                                                               VELEPMONE NUER:                                       DATE PREPAlEO I
:!_...   -:,""'
                  "J,
                        :..,;.,:,-::
                                       '!j.l).'   ri:'   ~~~~   '':   '''   ...:   ~~~   --.   _._   ''''':
